<html>
<title> - WATER AND POWER LEGISLATION</title>
<body><pre>[Senate Hearing 111-619]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-619

                      WATER AND POWER LEGISLATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 745                                H.R. 1120                           S. 1138                               H.R. 1393                           S. 1573                               H.R. 2265                           S. 3099                               H.R. 2442                           S. 3100                               H.R. 2522                           H.R. 325                              H.R. 2741                           H.R. 637 

                                     

                               __________

                             APRIL 27, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
61-558 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                   DEBBIE STABENOW, Michigan Chairman

BYRON L. DORGAN, North Dakota        SAM BROWNBACK, Kansas
TIM JOHNSON, South Dakota            JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, ARIZONA
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee











                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Brookshier, Ed, City Manager, City of Hermiston, Hermiston, OR...    23
Brownback, Hon. Sam, U.S. Senator From Kansas....................     6
Finkler, Kira, Deputy Commissioner, External and 
  Intergovernmental Affairs, Bureau of Reclamation, Department of 
  the Interior...................................................     7
Quinn, Timothy, Executive Director, Association of California 
  Water Agencies.................................................    18
Stabenow, Hon. Debbie, U.S. Senator From Michigan................     1
Wyden, Hon. Ron, U.S. Senator From Oregon........................     5

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    43

 
                      WATER AND POWER LEGISLATION

                              ----------                              


                        TUESDAY, APRIL 27, 2010

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:03 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Debbie 
Stabenow presiding.

 OPENING STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM 
                            MICHIGAN

    Senator Stabenow. Good afternoon. I call this subcommittee 
to order. I welcome each of our witnesses today. It's my 
pleasure to have the opportunity to chair this meeting because 
it's a very important meeting on water use, of course, which is 
incredibly important as we think about the future of 
development and economic growth in the United States and how we 
properly manage our limited water resources.
    We're seeing an increased demand for a finite existing 
supply of water, and how we manage that supply is a very 
important question for all of us today.
    We'll be looking at several bills to authorize new projects 
under the Bureau of Reclamation's Water Reuse and Recycling 
Program, otherwise known as Title XVI, and other bills that 
emphasize the need to conserve water. The bills today 
demonstrate the popularity of Reclamation's Title XVI water 
recycling program. Communities of all sizes in several 
different States are working very hard to improve water 
efficiency in order to address their long-term needs.
    The bills we're looking at today involve projects in 
Oregon, California, Utah, Arizona, and Texas, and cover a wide 
range of innovative ways to conserve water, from efforts to 
clean up chemical contamination in Utah to stretching municipal 
supplies in drought-stricken California, to obtaining an 
additional supply of water for agricultural purposes in Oregon. 
The Bureau of Reclamation plays an important role in assessing 
the feasibility of each of these projects and we look forward 
to hearing from the Bureau today.
    With regard to the next steps for these bills, the 
subcommittee's goal will be to ensure that the bills we move 
forward are consistent with the criteria required by the 
legislation authorizing Title XVI programs. Accordingly, we'll 
be looking for projects that are technically and economically 
viable. I look forward to learning more about the proposed 
water recycling projects during our hearing today.
    In addition, we have two bills on the agenda related to 
renewal of hydro licenses in Idaho. We will not be receiving 
any oral testimony today. We have received views from the 
Federal Regulatory Energy Commission on those bills. That will 
be made part of the record.
    [The information follows:]

                      Federal Energy Regulatory Commission,
                                    Washington, DC, April 26, 2010.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Office Building, Washington, DC.
RE: S. 3099

    Dear Chairman Bingaman: This letter is in response to your request 
for my views on S.3099. That bill would require the Federal Energy 
Regulatory Commission to reinstate, and grant a three-year extension of 
the commencement of construction deadline of, the license for the 
proposed 1.5-megawatt Lateral 993 Hydroelectric Project No. 12423, to 
be located at the juncture of the 993 Lateral Canal and the North 
Gooding Main Canal, northwest of the town of Shoshone, in Lincoln 
County, Idaho.
    The Commission issued an original license for this project, to 
American Falls Reservoir District No. 2 and Big Wood Canal, on 
September 26, 2003. The license provided that the company was required 
to commence project construction within two years of the date of the 
license, the maximum period permitted by section 13 of the Federal 
Power Act. The Commission subsequently granted a two-year extension of 
the commencement of construction deadline, again the maximum authorized 
by section 13. Construction had not commenced when that deadline 
expired, on September 26, 2007. Section 13 provides that, when 
construction has not timely commenced, the Commission must terminate 
the license. The Commission terminated the license by order dated 
August 3, 2009.
    I and the last several Commission Chairmen have taken the position 
of not opposing legislation that would extend the commencement of 
construction deadline up to 10 years from the date that the license in 
question was issued. Where proposed extensions would run beyond that 
time, there has been a sense that the public interest is better served 
by releasing the site for other public uses. Because S. 3099 authorizes 
the Commission to grant a three-year extension from the date of the 
bill's enactment, assuming that the bill is enacted by September 26, 
2010, thus extending the commencement of construction deadline to ten 
years from when the license was issued, I do not oppose the bill.
    If I can be of further assistance to you on this or any other 
Commission matter, please let me know.
            Sincerely,
                                           Jon Wellinghoff,
                                                          Chairman.

RE: S. 3100

    Dear Chairman Bingaman: This letter is in response to your request 
for my views on S.3100. That bill would require the Federal Energy 
Regulatory Commission to grant a three-year extension of the 
commencement of construction deadline for the proposed 1.5-megawatt 
Little Wood River Ranch II Hydroelectric Project No. 12063, to be 
located on the Little Wood River, near the town of Shoshone, in Lincoln 
County, Idaho, and to reinstate the project license if necessary.
    The Commission issued an original license for this project, to 
William Arkoosh, on March 17, 2006. The license provided that the 
company was required to commence project construction within two years 
of the date of the license, the maximum period permitted by section 13 
of the Federal Power Act. The Commission subsequently granted a two-
year extension of the commencement of construction deadline, again the 
maximum authorized by section 13, Construction had not commenced when 
that deadline expired, on March 16, 2010. Section 13 provides that, 
when construction has not timely commenced, the Commission must 
terminate the license. The Commission has not yet taken any steps to do 
so.
    I and the last several Commission Chairmen have taken the position 
of not opposing legislation that would extend the commencement of 
construction up to 10 years from the date that the license in question 
was issued. Where proposed extensions would run beyond that time, there 
has been a sense that the public interest is better served by releasing 
the site for other public uses. Because S. 3100 authorizes the 
Commission to grant a three-year extension from the date of the bill's 
enactment, thus (assuming enactment during this session of Congress) 
extending the commencement of construction deadline to less than eight 
years from when the license was issued, I do not oppose the bill.
    If I can be of further assistance to you on this or any other 
Commission matter, please let me know.
            Sincerely,
                                           Jon Wellinghoff,
                                                          Chairman.

    Senator Stabenow. Senator Brownback will be joining us as 
my ranking member in a few moments. But in the mean time, I 
want to thank Senator Wyden for his leadership on these and so 
many other issues and turn it to Senator Wyden for any 
comments.
    [The prepared statements of Senators Feinstein and Hatch 
and Representative Edwards follow:]
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
            California, on S. 1138, H.R. 637, and H.R. 2522
                              introduction
    Madam Chairwoman, thank you for conducting hearings on S.1138, the 
Bay Area Water Recycling Program Expansion Act of 2009; H.R.637, the 
South Orange County Recycled Water Enhancement Act; and H.R.2522, the 
Calleguas Municipal Water District Recycling Project. I speak in 
support of these three bills because collectively they will help 
relieve California's water shortage by providing federal funding to 
water treatment, recycling, and distribution facilities across the 
state.
    California's ongoing water crisis requires our urgent attention, 
and authorizing federal participation in, and funding for, water 
recycling, is key to providing a secure and reliable water supply for 
California.
                     why these bills are important
    Water supply remains a perennial challenge for California's 
leaders. Much of our population resides in areas with low rainfall, and 
a series of factors, including drought, climate change, federal water 
use restrictions, and the ever-increasing water needs of California's 
growing urban and agricultural centers, exacerbate California's chronic 
water shortage problem.
    Although California may appear to be emerging from the recent 
three-year drought, water shortages persist. Our work is not yet 
complete. To help homes, businesses, and municipalities survive future 
drought crises, it is critical that we develop solutions to help 
conserve and secure new water supplies.
    California has taken steps to do both. To illustrate, in 2009, Los 
Angeles imposed water use restrictions and increased rates for water 
use. This year, municipal and industrial water users south of the Delta 
have been restricted to 40 percent of their contractual water 
allocations from the State Water Project.
    The federal government has long been involved in Western water 
issues. With these bills, we now can help California provide water for 
reliable and drought-proof water supply by helping communities reclaim 
and reuse water.
                          what these bills do
    The first bill pending before the Subcommittee, called the Bay Area 
Water Recycling Program Expansion Act of 2009 (S.1138), will provide 
the Bay Area greater water management flexibility and help it meet its 
water needs.
    This legislation will enable the San Francisco Bay Area Recycle 
Water Coalition, a group of regional water providers, to build six new 
projects and complete two previously authorized projects by authorizing 
federal funding for up to 25 percent of the costs of these water 
management projects.
    Not only will this bill help to generate more than 8,000 acre-feet 
per year of new sustainable water supply, it will also help protect the 
local environment by generating a new sustainable water supply that 
reduces both wastewater discharges and the demand for fresh water from 
the Delta.
    The second piece of legislation, called the South Orange County 
Recycled Water Enhancement Act H.R.637, supports the Moulton Niguel and 
Santa Margarita Water Districts in their collaborative effort to 
improve water recycling, water storage, and water treatment in South 
Orange County.
    Their plans include constructing water facilities and 25,000 feet 
of pipes to store and deliver recycled water throughout San Juan 
Capistrano and San Clemente, as well as expand the existing Recycled 
Water Treatment Plant from 2.2 million gallons per day to 4.4 million 
gallons per day, and construct related infrastructure. These projects 
will help reduce the amount of reusable water that is discharged to the 
ocean, create new sources of water, and relieve the heavy water demand 
that this region places on the California Aqueduct and Colorado River 
Basin. The new water supply for the City of San Juan Capistrano will be 
1,500 acre-feet of recycled water annually--about 16 percent of San 
Juan Capistrano's average total annual water demand.
    With its increasing population and increasing water consumption, 
South Orange County needs water management systems that will help it 
provide and transport new sources of water. This legislation authorizes 
federal funding of up to 25 percent of the costs of these water 
management projects to help this region meet its water needs.
    The third and final bill, the Calleguas Municipal Water District 
Recycling Project H.R.2522, is another bill that will help alleviate 
California's water shortage. This bill authorizes federal funding of up 
to 25 percent of costs for a 26-mile extension of a pipeline to collect 
salty water generated by groundwater desalting facilities and to move 
excess recycled water for reuse elsewhere. With the pipeline extension, 
Calleguas will be able to develop 43,000 acre-feet of new, local, 
reliable water supply. Funding this project will improve the water 
supply quality and quantity for 650,000 people in Ventura County.
                               conclusion
    In California, water is precious, competition for water is fierce, 
and conservation is critical.
    Accordingly, California must increase the reliability, quantity and 
quality of its water supply. Now is the time to invest in new water 
technologies, such as water recycling, to meet increasing needs. These 
initiatives will allow partnerships of local water managers to treat 
wastewater and use the clean, recycled water for landscape irrigation 
and other uses, including golf courses, schools, city parks and other 
municipal facilities. These bills will undoubtedly help California meet 
its water needs.
    Thank you.
                                 ______
                                 
  Prepared Statement of Hon. Orrin G. Hatch, U.S. Senator From Utah, 
                               on S. 745
    Madam Chairwoman, I want to thank you and the members of this 
subcommittee for holding this hearing today on S. 745, the Magna Water 
District Water Reuse and Groundwater Recharge Act of 2009. The city of 
Magna is plagued by perchlorate-contaminated wells resulting from 
decades of government sponsored rocket motor production. To reverse 
this contamination, the district has developed a bio-destruction 
process which combines wastewater and desalination brine. This 
innovative technology dramatically reduces the cost and time associated 
with perchlorate cleanup operations. Once proven at Magna, the 
technology will accelerate the cleanup of many other perchlorate sites 
throughout the United States.
    This bill, Madam Chairwoman, would provide a federal match of 25 
percent of the total cost of the project. The district has already 
invested a significant amount of its own funds and hopes the federal 
government will contribute its share to help solve a problem which 
resulted from a government sanctioned activity.
    This project is critically important to the citizens of Magna for a 
number of reasons. Besides cleaning the water supply, it will allow the 
water district to reduce the use of high quality drinking water for 
irrigation, and it will showcase a new technology to attack a problem 
currently plaguing water districts throughout the U.S.
    Madam Chairwoman, I understand that some members of this committee 
also have perchlorate contamination in their states. Promoting this 
technology will no doubt bring about a much swifter and cost effective 
solution to all of our nation's perchlorate-contaminated sites. Again, 
I thank you and the members of this committee for holding this hearing 
and urge you to report this proposal to the full Senate. Thank you, 
Madam Chairwoman.
                                 ______
                                 
   Prepared Statement of Hon. Chet Edwards, U.S. Representative From 
                                Texas, 
                              on H.R. 1120
    I would like to thank Chairwoman Stabenow, Ranking Member Brownback 
and the honorable Senators of the subcommittee for both holding today's 
hearing and for the for the opportunity to submit my statement 
regarding HR 1120, the Central Texas Water Recycling Act of 2009.
    Our communities and nation have a responsibility to be good 
stewards of our water resources. That is why I introduced H.R. 1120, 
the Central Texas Water Recycling Act of 2009 that passed the House 
last year. The wise use of our water resources is something we should 
be investing in across the U.S. Encouraging water conservation is 
simply smart government. Central Texas often experiences periodic 
drought and it is important to promote water conservation measures that 
reduce our need for increased water supply.
    This bill will authorize federal funding so that the Bureau of 
Reclamation is able to partner with city efforts to build an innovative 
water recycling program in partnership with my hometown of Waco, Texas 
and several neighboring communities. It supports efforts to manage 
water resources efficiently in McLennan County by strategically 
locating regional satellite treatment plants that will not only provide 
for conservation of our community's water supply but will also reduce 
cost to the taxpayers.
    The initial projects under this legislation can provide up to 10 
million gallons per day of reuse water, reducing the water supply 
demand of several cities that rely on Lake Waco as a primary source of 
drinking water. Instead of wasting valuable drinking water for use in 
factories and on golf courses, we will be able to use lower cost 
recycled wastewater for those purposes and save enough drinking water 
for over 20,000 households.
    The bottom line is this. By being good stewards of our water 
supply, we will reduce water costs for businesses, save Central Texas 
taxpayers millions of dollars, and encourage economic growth in our 
area. Central Texas often experiences periodic drought and it is 
important to promote water conservation measures that reduce our need 
for increased water supply.
    I want to thank Chairman Rahall, Ranking Member Hastings and the 
members of the House Natural Resources Committee for their key role in 
this bill's passage. This legislation has passed the House three times 
and when it becomes law, is the kind of bipartisan effort that shows 
what Congress can do when we work together on a bipartisan basis.
    I also want to thank the mayors, City council and staff from the 
cities of Waco, Lorena, Robinson, Hewitt, Woodway, Bellmead and Lacy-
Lakeview for their cooperative efforts that brought us here today.
    Finally, I want to extend special credit to Waco's City Manager, 
Larry Groth, for his extraordinary leadership on this bill. Without his 
leadership, hard work and professionalism, we would not be here today, 
and as a citizen of Waco, I am grateful for his outstanding service to 
my hometown.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Madam Chair. Thank you for the 
chance to come. You are a passionate and knowledgeable issue--
knowledgeable advocate on what I think is the issue of the 
future, and that's water. These are so important and it's just 
great to have a chance to be with you.
    The bill that you're looking at, of course, S. 1573, 
legislation to authorize the U.S. Bureau of Reclamation to 
participate in the construction of the city of Hermiston water 
recycling project, it's a green project and I'm hoping that it 
can get the green light to proceed. The farmers like it. It's 
good for the fish. The city has completed a feasibility report. 
The Bureau of Reclamation has formally concluded that the 
project meets the requirements of Title XVI. You can just kind 
of look at all the bases that the city of Hermiston has 
touched. The regional office of National Marine Fisheries has 
approved it. The House is in support of it. The Confederated 
Tribes in Eastern Oregon are on record. Ed Brookshier's going 
to give you more details on the project today, but I just want 
my constituents to know I think they've done a great job 
dotting the i's and crossing the t's to literally get 
practically everybody imaginable for the project.
    One last comment, and that is that the Bureau of 
Reclamation is going to come today and offer what I call the 
classic Catch 22 that our local jurisdictions face. In effect, 
the Bureau of Reclamation says that it won't support the 
authorization of the project at the same time that it proposes 
new funding criteria that only allows authorized projects to be 
considered.
    So you just kind of scratch your head and say: OK, the city 
of Hermiston went out and completed every major requirement, 
including the feasibility studies by the Bureau, and now it's 
being told that even when you complete all the requirements, 
you still can't get authorized, and of course you can't get 
funded, as we know, if your project isn't authorized.
    So locked in this Catch 22 are the good people of Hermiston 
and, with your leadership and particularly your knowledge about 
water policy, I'm hopeful that we can extricate Hermiston today 
and get this project approved.
    So thank you very much and I look forward to working with 
you on this, as we have worked together on so many matters.
    Senator Stabenow. Thank you very much, Senator Wyden, and 
congratulations to a community who has worked together to bring 
all the parties together. So that's I know a lot of hard work 
to be able to do that.
    We will call on Senator Brownback when he joins us, but I 
think in the mean time we'll go ahead. We have one panel of 
witnesses today and we very much appreciate your time, and we 
appreciate all of your expertise as well. First we'll hear from 
Ms. Kira Finkler, who is the Deputy Commissioner of Reclamation 
and who will speak to the Reclamation bills on today's agenda. 
We welcome you back to the committee. It's always good to see 
you and appreciate your work on public lands issues over the 
years.
    In addition, we have Tim Quinn with us, the Executive 
Director of the Association of California Water Agencies, who 
will testify regarding the bills involving California.
    We appreciate your joining us today. We're also pleased to 
have Edward Brookshier, the City Manager from the city of 
Hermiston in Oregon, here to testify regarding S. 1573, 
sponsored by Senator Wyden. We look forward to hearing about 
the city of Hermiston's plans to utilize recycled water.
    So we thank you all of you for being here and look forward 
to your testimony, and appreciate that we have two of our 
witnesses who have flown here from the West Coast, a little bit 
longer travel time to get here, so we appreciate that.
    But first I would ask if Senator Brownback would like to 
make any comments before we turn to our witnesses.

         STATEMENT OF HON. SAM BROWNBACK, U.S. SENATOR 
                          FROM KANSAS

    Senator Brownback. I don't, Madam Chairwoman. Thank you 
very much. My apologies for being late. I look forward to the 
testimony. I've got an opening statement and will submit it for 
the record, but in the interest of time I'd be just 
appreciative of hearing from our testifiers.
    Thank you.
    [The prepared statement of Senator Brownback follows:]
   Prepared Statement of Hon. Sam Brownback, U.S. Senator From Kansas
    Senator Stabenow, it's a pleasure to be here today, and I thank you 
for chairing this important hearing.
    I am pleased to join you in welcoming the witnesses and members of 
the public.
    The bills we have under consideration this afternoon intend to 
address a very serious issue facing certain regions of this country--
the supply and availability of our water resources.
    As drought is expected to persist in the Southwest, it is of the 
utmost importance that we put in place infrastructure and other 
measures that will reclaim and recycle this precious resource.
    Almost 20 years ago, while faced with drought in the West, the 
102nd Congress passed the Reclamation Wastewater and Groundwater 
Studies and Facilities Act.
    Title 16 (XVI) of this law authorized the Bureau of Reclamation 
to--among other things--assist in the construction of facilities to 
reclaim and reuse wastewater.
    All of the bills before us today are at different stages in the 
process, and I hope that we can determine their practicality. In 
addition, we should continue to ask what other options are available to 
ensure that we can continue to increase our opportunities for improving 
water supply and security, not only in the West, but also throughout 
the country.
    Also on the docket today are two bills introduced by Senator Risch 
to extend the commencement of two hydroelectric facilities in Idaho.
    While none of these pieces of legislation directly affect my home 
state, the ability to access clean, abundant sources of water is an 
issue that transcends physical boundaries.
    The United States government and its agencies should recognize 
water resources are the purview of the individual state, and the 
citizens and groups within that state, for allocation decisions and 
recommendations on all water resources projects and their management. 
Each federal agency, including the Bureau of Reclamation, should 
recognize and work within the state's own water resources planning 
structure.
    In Kansas, and most states in our region, there are multiple 
federal agencies with a role in water issues. These agencies, 
unfortunately, are often not well coordinated in their efforts. In 
fact, in some cases there are statutory or regulatory prohibitions 
preventing those agencies from being able to cooperate and share 
resources. This fact is limiting the ability of my state to adequately 
address issues within its borders. If the states are truly to lead 
planning and management of water resources, federal agencies must be 
willing and able to work cooperatively with each other and those states 
seeking assistance. Otherwise, significant time and funding is expended 
to overcome artificial and unreasonable barriers to cooperation.
    While there have been significant impediments to more robust water 
development and modernization, there are definite areas of progress 
that have moved our region of the country towards greater utilization 
of this most valuable natural resource. Hopefully, today's hearing will 
provide us with more cooperative ideas in continuing our nation's 
progress in providing adequate water resources to every citizen within 
our borders.
    Once again, I thank the witnesses for your presence and thank you, 
Senator Stabenow, for conducting this hearing.

    Senator Stabenow. Thank you very much.
    So we'll turn to Ms. Finkler. Welcome.

 STATEMENT OF KIRA FINKLER, DEPUTY COMMISSIONER, EXTERNAL AND 
INTERGOVERNMENTAL AFFAIRS, BUREAU OF RECLAMATION, DEPARTMENT OF 
                          THE INTERIOR

    Ms. Finkler. Thank you, Madam Chairwoman and Senator 
Brownback. I am Kira Finkler, Deputy Commissioner at the Bureau 
of Reclamation, and I'm pleased to provide the Department's 
views on the 8 Reclamation bills before the subcommittee today. 
Seven of the eight Reclamation bills being considered concern 
authorizations under the Reclamation Wastewater and Groundwater 
Study and Facilities Act, also known as Title XVI. Written 
statements have been submitted, so I will just summarize the 
Department's position on these seven.
    Currently the Department cannot support these bills. As a 
general matter, please know that the Department does support 
the Title XVI program. The fiscal year 2011 budget requests $29 
million for the program as part of the Water Smart program and 
that's a 113 percent increase over the 2010 enacted level. As 
part of this total, the Department is requesting $20 million 
for Title XVI projects that would be selected using criteria to 
identify activities most closely aligned with the statutory and 
program goals.
    On March 15 we posted an announcement inviting comments on 
draft funding criteria and the comment period closed on April 
16. Once the comment review is completed and the criteria are 
finalized, we will prepare a funding opportunity announcement. 
Of course, the funds available will be subject to the fiscal 
year 2011 Congressional appropriations.
    We recognize that water reuse is an essential tool in 
stretching the limited water supplies in the West and we 
believe that our budget request, along with the $135 million in 
Recovery Act funding that we allocated to Title XVI, 
demonstrates the high priority that the administration places 
on this program. However, we cannot support new Title XVI 
authorizations at this time because these projects would 
compete for funds with other needs within the Reclamation 
program, including other Title XVI projects currently under 
construction.
    Reclamation has, however, continued to work with project 
sponsors to evaluate the completeness of their feasibility 
studies. Specifically, the seven Title XVI bills pending today, 
which authorize a total of 11 new projects, are at varying 
stages in the feasibility process, which I will briefly 
summarize now.
    S. 745, the Utah project, has a complete study--I'm sorry--
was certified as having a complete feasibility study back in 
July 2009. S. 1138, which authorizes a total of six new Title 
XVI projects in California as well as a cost ceiling increase 
for two already authorized projects, we have not certified any 
of the 6 new projects as having complete feasibility studies. 
S. 1573, the Oregon bill that was mentioned earlier, was 
certified as having a complete feasibility study earlier this 
month. H.R. 325, we have not yet received material sufficient 
to determine the completeness of the feasibility study for this 
proposed project in Arizona.
    H.R. 637, In 2006 the city of San Juan Capistrano submitted 
its project study material for review. We determined that the 
material was not complete and requested additional material, 
and we haven't received any additional information since that 
time. Separately, the city of San Clemente, California, has not 
submitted any feasibility materials or other information for 
its portion of this project.
    H.R. 1120, Reclamation certified the city of Waco's project 
in Texas as having a complete feasibility study in October 
2009; and H.R. 2522, Reclamation certified this project as 
having a complete feasibility study in April 2000.
    Separately, the last bill we will provide testimony on 
today is H.R. 1393, which would authorize an additional 19 
water conservation projects under the existing Lower Rio Grande 
Valley Water Resources Conservation and Improvement Act 
program. Our fiscal year 2011 budget request for this program 
is $50,000. However, with the need to direct resources toward 
ongoing projects and to operate, maintain, and rehabilitate 
existing projects, we cannot support this bill at this time.
    First established by law in 2000 and as amended in 2002, 
the current program authorizes construction of 19 projects, 
with $55 million authorized to be appropriated. To date, 
Reclamation has approved 16 project reports and 13 of the 
projects have begun construction. In general, the construction 
activities have outpaced appropriated funds. To date, 
approximately $21 million of project reimbursements have been 
requested by the districts and about $17.9 million has been 
paid. Given the large amount of funding still under the 
existing ceiling, as well as the factors cited previously, the 
Department cannot support this bill at this time.
    Madam Chairwoman, this concludes my remarks. I'm pleased to 
answer any questions the subcommittee may have.
    Thank you.
    [The prepared statements of Ms. Finkler follow:]
Prepared Statements of Kira Finkler, Deputy Commissioner, External and 
  Intergovernmental Affairs, Bureau of Reclamation, Department of the 
                                Interior
                                 s. 745
    Madam Chairwoman and Members of the Subcommittee, I am Kira 
Finkler, Deputy Commissioner for External and Intergovernmental Affairs 
at the Bureau of Reclamation (Reclamation). I am pleased to provide the 
views of the Department of the Interior (Department) on S. 745, the 
Magna Water District Water Reuse and Groundwater Recharge Project. For 
reasons I will discuss below, the Administration cannot support the 
bill.
    S. 745 would amend the Reclamation Wastewater and Groundwater Study 
and Facilities Act (Public Law 102-575, 43 U.S.C. 390h et seq.), 
commonly called Title XVI, to authorize the Secretary of the Interior 
to participate in the design, planning, and construction of permanent 
facilities needed to establish recycled water distribution and 
wastewater treatment and reclamation facilities in the Magna Water 
District in Salt Lake County, Utah.
    S. 745 authorizes a $12 million (25 percent) Federal cost share for 
the project. The proposed project has an estimated total project cost 
of $51 million and would reduce the District's reliance on high quality 
potable water by 580 million gallons (1,780 acre-feet) per year, 
currently used for non-potable water supply. Reclamation completed a 
review of the Magna Water District's Feasibility Study in July 2009, 
and made a finding that the District's report met the requirements of a 
feasibility study as defined under Section 1604 of Title XVI.
    S. 745 would authorize the project under Title XVI for Federal 
funding not to exceed 25 percent or $20 million, whichever is less.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use, this project would compete 
for funds with other needs within the Reclamation program, including 
other Title XVI projects currently under construction. In general, the 
Department supports the Title XVI Reclamation and Reuse program. The 
2011 budget proposal includes funding for the Department's WaterSMART 
Program, and Title XVI is an important element of that program. 
Specifically, the 2011 budget proposal includes $29 million for the 
Title XVI program, a 113% increase over the 2010 enacted level.
    As part of this total, the Department is requesting $20 million for 
Title XVI projects to be selected using criteria to identify activities 
most closely aligned with Title XVI statutory and program goals. On 
March 15, 2010, Reclamation posted an announcement inviting comment on 
draft funding criteria for Title XVI projects. After these criteria are 
finalized with comments received up through April 16, Reclamation will 
review and rank Title XVI project proposals received based on those 
criteria subject to appropriations in fiscal year 2011.
    Separately, in July of 2009, the Department announced the 
allocation of approximately $135 million in grants for specific 
authorized Title XVI projects using funds from the American Recovery 
and Reinvestment Act, or ARRA. We recognize that water reuse is an 
essential tool in stretching the limited water supplies in the West, 
and I believe the FY 2011 Budget request on top of the ARRA funding has 
demonstrated the emphasis placed by this Administration on this 
Program. However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects or extensions of existing authorized cost 
ceilings at this time.
    Reclamation will, however, continue to work with project proponents 
to evaluate the completeness of feasibility studies of their projects.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on S. 745. I would be pleased to answer any 
questions at this time.
                                s. 1138
    Madam Chairwoman and Members of the Subcommittee, I am Kira 
Finkler, Deputy Commissioner for External and Intergovernmental Affairs 
at the Bureau of Reclamation (Reclamation). I am pleased to provide the 
views of the Department of the Interior (Department) on S. 1138, the 
Bay Area Regional Water Recycling Program (BARWRP) Expansion Act of 
2009. For reasons I will discuss below, the Administration cannot 
support the bill.
    S. 1138 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575, 43 U.S.C. 390h et seq.), 
commonly called Title XVI, to authorize the Secretary of the Interior 
to participate in the design, planning, and construction of six new 
permanent facilities needed to reclaim, reuse, and treat groundwater 
and wastewater in the greater San Francisco Bay Area. The legislation 
would also increase the Federal cost share for two previously-
authorized Title XVI projects in the same area from $10.5 million to 
$16.3 million. S. 1138 would increase the number of BARWRP projects 
from eight to fourteen. These new projects are being implemented by the 
Central Contra Costa Sanitary District, the Dublin San Ramon Services 
District, the City of Petaluma, the City of Redwood City, the City of 
Palo Alto, and the Ironhouse Sanitary District. The Federal cost share 
increases would be for the Delta Diablo Sanitation District and the 
Santa Clara Valley Water District.
New Projects
    The Central Contra Costa Sanitary District's Concord Recycled Water 
Project feasibility report has been reviewed by Reclamation; a 
feasibility certification is expected to be made in April 2010.
    The Dublin San Ramon Services District's Central Dublin Recycled 
Water Distribution and Retrofit Project's feasibility materials were 
determined complete in December 2009.
    The City of Petaluma's Petaluma Recycled Water Project, Phase 2A, 
2B, and 3 has not been determined to have a complete feasibility study. 
The City expects to submit feasibility materials by June 2010.
    The City of Redwood City has not submitted a complete feasibility 
report, financial capability information, or a NEPA compliance document 
for Reclamation's review and determination for the Central Redwood City 
Recycled Water Project. The City is currently updating its city-wide 
General Plan; it is planned to be adopted by City Council in summer of 
2010. Planning for the Central Redwood City project, including 
preparation of a feasibility report will begin after adoption of the 
General Plan.
    The City of Palo Alto's Recycled Water Pipeline Project has not 
been determined to have a complete feasibility study. The City has not 
submitted financial capability information. The City anticipates 
submitting feasibility study materials by June 2010. The City continues 
to work on a NEPA compliance document.
    The Ironhouse Sanitary District has not submitted a feasibility 
report, financial capability information, or a NEPA compliance document 
for Reclamation's review and determination for the Antioch Recycled 
Water Project. The District anticipates their recycled water master 
plan will be completed by the end of summer 2010. This plan will be the 
basis of the feasibility report that will be submitted in 2011. NEPA 
related work is also anticipated for 2011.
Previously Authorized Projects--Increased Cost Share
    Delta Diablo Sanitation District's Antioch Recycled Water Project 
is authorized for construction, has been determined to have completed 
the necessary feasibility studies; it is financially capable under the 
Title XVI program, and is NEPA compliant.
    Santa Clara Valley Water District's South Bay Advanced Recycled 
Water Treatment Facility is authorized for construction, has been 
determined to have completed the necessary feasibility studies; it is 
financially capable under the Title XVI program, and is NEPA compliant.
    S. 1138 would authorize these projects under Title XVI for Federal 
funding with project-specific maximum Federal cost shares that do not 
to exceed 25 percent of the estimated total project cost.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use, these projects would compete 
for funds with other needs within the Reclamation program, including 
other Title XVI projects currently under construction. In general, the 
Department supports the Title XVI Reclamation and Reuse program. The 
2011 budget proposal includes funding for the Department's WaterSMART 
Program, and Title XVI is an important element of that program. 
Specifically, the 2011 budget proposal includes $29 million for the 
Title XVI program, a 113% increase over the 2010 enacted level.
    As part of this total, the Department is requesting $20 million for 
Title XVI projects to be selected using criteria to identify activities 
most closely aligned with Title XVI statutory and program goals. On 
March 15, 2010, Reclamation posted an announcement inviting comment on 
draft funding criteria for Title XVI projects. After these criteria are 
finalized with comments received up through April 16, Reclamation will 
review and rank Title XVI project proposals received based on those 
criteria subject to appropriations in fiscal year 2011.
    Separately, in July of 2009, the Department announced the 
allocation of approximately $135 million in grants for specific 
authorized Title XVI projects using funds from the American Recovery 
and Reinvestment Act of 2009, or ARRA. We recognize that water reuse is 
an essential tool in stretching the limited water supplies in the West, 
and I believe the FY 2011 Budget request on top of the ARRA funding has 
demonstrated the emphasis placed by this Administration on this 
Program. However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects or extensions of existing authorized cost 
ceilings at this time.
    Reclamation will, however, continue to work with project proponents 
to evaluate the feasibility of their projects.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on S. 1138. I would be pleased to answer any 
questions at this time.
                                s. 1573
    Madam Chairwoman and Members of the Subcommittee, I am Kira 
Finkler, Deputy Commissioner for External and Intergovernmental Affairs 
at the Bureau of Reclamation (Reclamation). I am pleased to provide the 
views of the Department of the Interior (Department) on S. 1573, the 
City of Hermiston, Oregon, Water Recycling and Reuse Project. For 
reasons I will discuss below, the Administration cannot support the 
bill.
    S. 1573 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575, 43 U.S.C. 390h et seq.), 
commonly called Title XVI, to authorize the Secretary of the Interior 
to participate in the design, planning, and construction of permanent 
facilities needed to reclaim and reuse wastewater in the City of 
Hermiston, Oregon. The project is being implemented by the City of 
Hermiston.
    The City of Hermiston, located in north central Oregon, is one of 
the largest communities within Reclamation's Umatilla Project area. The 
project proposed by the City includes upgrades and construction at 
their existing wastewater treatment facility and construction of a 
delivery system that would deliver recycled water to the West Extension 
Irrigation District. The recycled water would be used by the District 
to irrigate agricultural lands. By 2031, it is estimated this proposed 
project would provide the District with an approximate 2,034 acre-feet 
of drought resistant water supply during the irrigation season. The 
current total estimated cost for this project is approximately $25.8 
million.
    In January 2010, the City of Hermiston submitted their feasibility 
report to Reclamation for review under the Title XVI program. In April 
2010, Reclamation's review team completed the review and made the 
certification that the proposed project ``Meets Requirements'' as 
defined under section 1604 of Public Law 102-575, as amended.
    The City and Reclamation's Pacific Northwest Region are continuing 
to coordinate on actions that are necessary to be complete prior to 
implementation of the proposed project. This includes activities such 
as the determination of the project sponsor's financial capability, 
completion of Federal environmental compliance actions, water 
contracts, water rights, and entering into a land use agreement since 
the delivery pipe is to cross Reclamation land.
    S. 1573 would authorize the City of Hermiston's project under Title 
XVI for Federal funding not to exceed 25 percent of the total cost of 
the project.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use, this project would compete 
for funds with other needs within the Reclamation program, including 
other Title XVI projects currently under construction. In general, the 
Department supports the Title XVI Reclamation and Reuse program. The 
2011 budget proposal includes funding for the Department's WaterSMART 
Program, and Title XVI is an important element of that program. 
Specifically, the 2011 budget proposal includes $29 million for the 
Title XVI program, a 113% increase over the 2010 enacted level.
    As part of this total, the Department is requesting $20 million for 
Title XVI projects to be selected using criteria to identify activities 
most closely aligned with Title XVI statutory and program goals. On 
March 15, 2010, Reclamation posted an announcement inviting comment on 
draft funding criteria for Title XVI projects. After these criteria are 
finalized with comments received up through April 16, Reclamation will 
review and rank Title XVI project proposals received through a public 
funding opportunity announcement based on those criteria subject to 
appropriations in fiscal year 2011.
    Separately, in July of 2009, the Department announced the 
allocation of approximately $135 million in grants for specifically 
authorized Title XVI projects using funds from the American Recovery 
and Reinvestment Act, or ARRA. We recognize that water reuse is an 
essential tool in stretching the limited water supplies in the West, 
and I believe the FY 2011 Budget request on top of the ARRA funding has 
demonstrated the emphasis placed by this Administration on this 
Program. However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects or extensions of existing authorized cost 
ceilings at this time.
    Reclamation will, however, continue to work with project proponents 
to evaluate the completeness of feasibility studies of their projects.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on S. 1573. I would be pleased to answer any 
questions at this time.
                                h.r. 325
    Madam Chairwoman and Members of the Subcommittee, I am Kira 
Finkler, Deputy Commissioner for External and Intergovernmental Affairs 
at the Bureau of Reclamation. I am pleased to provide the views of the 
Department of the Interior (Department) on H.R. 325, the Avra/Black 
Wash Reclamation and Riparian Restoration Project Act. For reasons I 
will discuss below, the Administration cannot support the bill.
    H.R. 325 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575, 43 U.S.C. 390h et seq.), 
commonly called Title XVI, to authorize the Secretary of the Interior 
to participate in the design, planning, and construction of permanent 
facilities needed to reclaim, reuse, and treat groundwater and 
wastewater in the Black Wash Sonoran Desert ecosystem, west of the 
metropolitan Tucson area in Arizona. The project is being implemented 
by Pima County.
    Pima County is expanding the 1.5 million gallon per day (mgd) 
wastewater treatment facility to a capacity of 5 mgd. Currently, 
treated effluent is not reused. The proposed project would provide 
tertiary treatment and establish procedures to recharge the reclaimed 
water in ponds and the Black Wash. The treated effluent that was 
previously evaporated would instead recharge the aquifer, and state law 
would allow this recharge to be measured and stored as credits to be 
pumped at a later date. By recharging the water in the channel of Black 
Wash, riparian and wildlife habitat will be created, preserved and 
protected. The project includes plans to provide baseline ecological 
reconnaissance for monitoring of diversity and ecological health of the 
site.
    Reclamation has been working with Pima County to review the 
technical, regulatory and contractual issues involved in the project 
but discussions have been preliminary. To date, the steps necessary to 
prepare a feasibility report that meet the requirements for feasibility 
of a Title XVI project have only briefly been discussed. Because the 
technical studies are not complete, the feasibility, environmental 
impacts and cost effectiveness for this project cannot be determined.
    H.R. 325 would authorize the project under Title XVI for Federal 
funding not to exceed 25 percent of the total project cost or $14 
million, whichever is less.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use, this project would compete 
for funds with other needs within the Reclamation program, including 
other Title XVI projects currently under construction. In general, the 
Department supports the Title XVI Reclamation and Reuse program. The 
2011 budget proposal includes funding for the Department's WaterSMART 
Program, and Title XVI is an important element of that program. 
Specifically, the 2011 budget proposal includes $29 million for the 
Title XVI program, a 113% increase over the 2010 enacted level.
    As part of this total, the Department is requesting $20 million for 
Title XVI projects to be selected using criteria to identify activities 
most closely aligned with Title XVI statutory and program goals. On 
March 15, 2010, Reclamation posted an announcement inviting comment on 
draft funding criteria for Title XVI projects. After these criteria are 
finalized with comments received up through April 16, Reclamation will 
review and rank Title XVI project proposals received based on those 
criteria subject to appropriations in fiscal year 2011.
    Separately, in July of 2009, the Department announced the 
allocation of approximately $135 million in grants for specific 
authorized Title XVI projects using funds from the American Recovery 
and Reinvestment Act, or ARRA. We recognize that water reuse is an 
essential tool in stretching the limited water supplies in the West, 
and I believe the FY 2011 Budget request on top of the ARRA funding has 
demonstrated the emphasis placed by this Administration on this 
Program. However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects or extensions of existing authorized cost 
ceilings at this time.
    Reclamation will, however, continue to work with project proponents 
to evaluate the completeness of feasibility studies of their projects.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 325. I would be pleased to answer any 
questions at this time.
                                h.r. 637
    Madam Chairwoman and Members of the Subcommittee, I am Kira 
Finkler, Deputy Commissioner for External and Intergovernmental Affairs 
at the Bureau of Reclamation (Reclamation). I am pleased to provide the 
views of the Department of the Interior (Department) on H.R. 637, the 
South Orange County Recycled Water Enhancement Act. For reasons I will 
discuss below, the Administration cannot support the bill.
    H.R. 637 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575, 43 U.S.C. 390h et seq.), 
commonly called Title XVI, to authorize the Secretary of the Interior 
to participate in the design, planning, and construction of permanent 
facilities needed to reclaim, reuse, and treat wastewater in the 
southern part of Orange County, California. The project is being 
implemented by the cities of San Juan Capistrano and San Clemente.
    Reclamation has very little information regarding these two water 
recycling projects. Neither city has been in contact with Reclamation 
recently regarding these projects, and Reclamation does not have any 
information regarding the current project descriptions.
    In 2006, during the CalFed/Title XVI review that was completed 
pursuant to P.L. 108-361, the City of San Juan Capistrano submitted 
project study materials for review. Reclamation's review determined 
that the report did not meet 6 of the 9 criteria that were required for 
a complete feasibility report. The City has not provided any additional 
information since that time. The City of San Clemente has not submitted 
any study materials or other information for review.
    H.R. 637 would authorize the projects under Title XVI for Federal 
funding not to exceed 25 percent or $18.5 million for the San Juan 
Capistrano project or $5 million for the San Clemente project, 
whichever is less.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use, this project would compete 
for funds with other needs within the Reclamation program, including 
other Title XVI projects currently under construction. In general, the 
Department supports the Title XVI Reclamation and Reuse program. The 
2011 budget proposal includes funding for the Department's WaterSMART 
Program, and Title XVI is an important element of that program. 
Specifically, the 2011 budget proposal includes $29 million for the 
Title XVI program, a 113% increase over the 2010 enacted level.
    As part of this total, the Department is requesting $20 million for 
Title XVI projects to be selected using criteria to identify activities 
most closely aligned with Title XVI statutory and program goals. On 
March 15, 2010, Reclamation posted an announcement inviting comment on 
draft funding criteria for Title XVI projects. After these criteria are 
finalized with comments received up through April 16, Reclamation will 
review and rank Title XVI project proposals received based on those 
criteria subject to appropriations in fiscal year 2011.
    Water conservation is a laudable goal and is becoming increasingly 
important in the arid West. As such, it is critical that the 
competitive Title XVI grants be directed at those projects that will do 
the most to reduce present or anticipated water conflicts. Also, when 
looking at proposed Title XVI projects, the full range of benefits and 
costs should be assessed. The Administration supports those 
conservation projects that achieve water savings while not being overly 
energy intensive or creating adverse environmental or health effects.
    Separately, in July of 2009, the Department announced the 
allocation of approximately $135 million in grants for specific 
authorized Title XVI projects using funds from the American Recovery 
and Reinvestment Act, or ARRA. We recognize that water reuse is an 
essential tool in stretching the limited water supplies in the West, 
and I believe the FY 2011 Budget request on top of the ARRA funding has 
demonstrated the emphasis placed by this Administration on this 
Program. However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects or extensions of existing authorized cost 
ceilings at this time.
    Reclamation will, however, continue to work with project proponents 
to evaluate the completeness of feasibility studies of their projects.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 637. I would be pleased to answer any 
questions at this time.
                               h.r. 1120
    Madam Chairwoman and Members of the Subcommittee, I am Kira 
Finkler, Deputy Commissioner for External and Intergovernmental Affairs 
at the Bureau of Reclamation (Reclamation). I am pleased provide the 
views of the Department of the Interior (Department) on H.R. 1120, the 
Central Texas Water Recycling Act of 2009. For reasons I will discuss 
below, the Administration cannot support the bill.
    H.R. 1120 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575, 43 U.S.C. 390h et seq.), 
commonly called Title XVI, to authorize the Secretary of the Interior 
to participate in the design, planning, and construction of permanent 
facilities needed to reclaim and reuse water in McLennan County. The 
project is being implemented by the City of Waco.
    The City of Waco (City) has projected a 12,000 acre-foot per year 
water deficit in 2060. The Brazos River Basin Regional Water Group, 
which includes the City of Waco and which reports water management 
recommendations to the State of Texas, recommended water reuse as an 
important management strategy in meeting this need. The City has 
identified numerous customers in the area with a total expected reuse 
demand of 3.0 million gallons per day. The City proposes to construct 
infrastructure to convey treated effluent to these customers.
    The City submitted Title XVI feasibility materials to Reclamation 
on September 3, 2009, and an agency review team collaborated with the 
City on revising the report to meet Reclamation's Title XVI feasibility 
report requirements. Reclamation's team completed its review of the 
revised feasibility report and compared it to the criteria established 
in P.L. 102-575, as amended and Reclamation's Directives and Standards. 
Based on this review, the team recommended that the Great Plains 
Regional Director and the Policy and Administration Director concur 
that the feasibility report is complete. The Regional Director and 
Director of Policy and Administration provided concurrence on October 8 
and October 13, 2009, respectively.
    H.R. 1120 would authorize the project under Title XVI for Federal 
funding not to exceed 25 percent of the total project cost or $20 
million, whichever is less.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use, this project would compete 
with other Reclamation programs for funding, including other Title XVI 
projects currently under construction. In general, the Department 
supports the Title XVI Reclamation and Reuse program. The 2011 budget 
proposal includes funding for the Department's WaterSMART Program, and 
Title XVI is an important element of that program. Specifically, the 
2011 budget proposal includes $29 million for the Title XVI program, a 
113% increase over the 2010 enacted level.
    As part of this total, the Department is requesting $20 million for 
Title XVI projects to be selected using criteria to identify activities 
most closely aligned with Title XVI statutory and program goals. On 
March 15, 2010, Reclamation posted an announcement inviting comment on 
draft funding criteria for Title XVI projects. After these criteria are 
finalized with comments received up through April 16, Reclamation will 
review and rank Title XVI project proposals received based on those 
criteria subject to appropriations in fiscal year 2011.
    Separately, in July of 2009, the Department announced the 
allocation of approximately $135 million in grants for specific 
authorized Title XVI projects using funds from the American Recovery 
and Reinvestment Act, or ARRA. We recognize that water reuse is an 
essential tool in stretching the limited water supplies in the West, 
and I believe the FY 2011 Budget request on top of the ARRA funding has 
demonstrated the emphasis placed by this Administration on this 
Program. However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects or extensions of authorized existing cost 
ceilings at this time.
    Reclamation will, however, continue to work with project proponents 
to evaluate the completeness of feasibility studies of their projects.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 1120. I would be pleased to answer any 
questions at this time.
                               h.r. 1393
    Madam Chairman, I am Deputy Commissioner Kira Finkler, Deputy 
Commissioner for External and Intergovernmental Affairs at the Bureau 
of Reclamation (Reclamation). I am pleased to present the views of the 
Department of the Interior (Department) on H.R. 1393, a bill to amend 
the Lower Rio Grande Valley Water Resources Conservation and 
Improvement Act of 2000 (Act) to authorize additional projects and 
activities. For reasons I will discuss below, the Administration cannot 
support the bill.
    H.R. 1393 authorizes an additional 19 water conservation projects, 
which include the replacement of canals and laterals with pipelines, 
the lining of canals and laterals, the installation of water 
measurement and telemetry systems, the renovation and replacement of 
pumping plants, and other activities that will result in the 
conservation of water. The legislation would enable the Secretary to 
fund up to 50% of the total cost of these projects once they meet the 
review criteria and project requirements in the Act. The purpose of 
this bill is to provide water saving measures to areas in Texas that 
continue to suffer from drought.
    The Department lauds local and state efforts to improve and 
encourage water efficiency and to responsibly manage water quantity in 
the border region. The Department testified in general support (with 
some suggested revisions) of the original legislation that became P.L. 
106-576 and of the subsequent amendment (P.L. 107-351). Together, these 
laws authorized 19 projects with a cost ceiling of $47,000,000. The 
amendments offered in H.R. 1393 appear to maintain the intent of the 
existing bill while authorizing an additional 19 projects with a cost 
ceiling of $42,356,145. Reclamation's Fiscal Year 2011 appropriations 
request for this program is $50,000, which does not include non-Federal 
funds. However, with the need to direct resources toward constructing 
ongoing projects, and to operate, maintain, and rehabilitate existing 
projects, we cannot support adding additional projects to the long list 
of already authorized projects awaiting Federal funding.
Implementation of P.L. 106-576
    Since late December of 2000, when P.L. 106-576 was enacted, 
Reclamation has been working successfully and cooperatively with local 
entities in the Lower Rio Grande Valley, the Texas Water Development 
Board, and the Texas Agricultural Extension Service of Texas A&M 
University. The first requirement of the public law was issuance of 
criteria by which Reclamation would administer the law and determine 
project eligibility for federal funding. These criteria were prepared, 
shared with state, local and other federal entities, and issued in late 
June 2001, within the six month timeframe required by the law.
    Next, the irrigation districts involved with the 19 currently 
authorized projects and the Texas Water Development Board worked with 
Reclamation to begin planning, designing and construction of authorized 
projects. To date, Reclamation has approved 16 Project Reports and 13 
of the projects have initiated construction, eight of which are 
substantially complete and under operation.
Project Scope and Cost
    The emphasis placed by the Act on the initial 19 authorized 
projects is primarily on a project's scope, not upon its costs. For 
example, the scope of each authorized project is defined by the 
language in the Act itself and in the cited engineering report. In some 
cases, the specificity of this language has limited the authorization 
of (and therefore Reclamation's participation in) a project to only a 
portion of what an irrigation district has proposed to construct. The 
total project costs of each of these projects are not, however, 
specified in the legislation or in the cited engineering reports, but 
are determined once the authorized components are sufficiently 
developed in the Project Report and a project budget developed. In 
accordance with Section 4(b) of the Act, the Federal share of each 
project is then determined to be 50 percent of this total project cost.
    In contrast, the emphasis that would be placed by H.R. 1393 on the 
second 19 projects considered for authorization would be on the 
project's cost, not upon its scope. Without changing the conditions for 
implementation of the first 19 projects, H.R. 1393 imposes different 
conditions for implementation on the proposed 19 projects. For example, 
unlike the previous two bills, Section 2(b) of H.R. 1393 would amend 
the Act to authorize virtually any project component that would result 
in the conservation of water or an improved supply of water, whether or 
not this component lies within the scope of the cited engineering 
report for that project. Also unlike the Act, H.R. 1393 would identify 
a maximum total cost for each project, half of the sum of which equals 
the identified ceiling. Furthermore, Section 3 of H.R. 1393 maintains 
separate ceilings for each of the groups of projects; namely, 
$47,000,000 (2001 dollars) for projects 1 thru 19, and $42,356,145 
(2004 dollars) for projects 20 thru 38.
    These differences, while not affecting the requirements for project 
qualification, would require somewhat different treatment of projects 
with regard to determining scope and cost, depending upon specific 
project authorizations.
Cost Indexing
    After the budget authority for these 19 projects is given, H.R. 
1393 includes the phrase ``2004 dollars'' in parentheses. This is 
similar to the language included in Section 4 (c) of the original Act, 
as amended. To eliminate any question about Reclamation's authority to 
index costs for either group of 19 projects, Reclamation recommends 
that Section 4 (c) of the Lower Rio Grande Valley Water Resources 
Conservation and Improvement Act of 2000 (Public Law 106-576; 114 Stat. 
3067) be amended by replacing these two phrases with the following: 
``plus or minus such amounts, if any, as may be justified by reason of 
ordinary fluctuations in construction costs as indicated by engineering 
cost indexes applicable to the types of construction involved herein.''
Project Planning
    The proposed legislation pre-authorizes projects that have had 
limited, if any, involvement from the Bureau of Reclamation in the 
project planning and development process, and which have not undergone 
Administration review. Although the Administration supports the efforts 
of local project beneficiaries to address their local water needs, we 
cannot support authorization nor provide funding for projects that have 
not undergone rigorous Administration review.
Conclusion
    Madam Chairwoman, we recognize the importance of improving the 
efficiency of use and delivery of water in this part of the country. 
However, given the numerous other requirements on Reclamation's budget, 
such as funding the ongoing operation, maintenance, and rehabilitation 
of our existing projects and funding for ongoing authorized rural water 
projects and Native American settlements, we are unable to fund the 
activities that are already authorized. . The Federal government 
strives to leverage its resources to those projects that have benefits 
that exceed costs and foster locally-based solutions that do not 
require Federal investment in perpetuity.
    In addition to the specific provisions identified in this 
testimony, Reclamation would be happy to work with the Committee to 
address any questions that may arise through the legislative process.
    Madam Chairwoman, this concludes my testimony. I am pleased to 
answer any questions.
                               h.r. 2522
    Madam Chairwoman and Members of the Subcommittee, I am Kira 
Finkler, Deputy Commissioner for External and Intergovernmental Affairs 
at the Bureau of Reclamation (Reclamation). I am pleased to provide the 
views of the Department of the Interior (Department) on H.R. 2522, a 
proposal to raise the ceiling on the Federal share of the cost of the 
Calleguas Municipal Water District (District) Recycling Project. For 
reasons I will discuss below, the Administration cannot support the 
bill.
    H.R. 2522 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575, 43 U.S.C. 390h et seq.), 
commonly called Title XVI, to increase the ceiling on the Federal share 
of the costs of the Calleguas project to $60 million. This project is 
authorized by Section 1616 of Title XVI, and the Federal share of this 
project is currently limited to 25 percent of the total cost, or a 
maximum contribution of $20 million.
    The District submitted a feasibility study as required by the Title 
XVI statute, and it was certified as complete in April of 2000. The 
feasibility study included nine distinct components: five wastewater 
reclamation and reuse projects, three brackish groundwater recovery 
projects, and a regional brine disposal project. A cooperative 
agreement was executed in September 2000, to provide Federal funding 
for one of the wastewater reclamation and reuse projects known as the 
Conejo Creek Diversion Project. This project was completed in 
September, 2003, and is currently producing about 9,000 acre-feet of 
recycled water annually. The total Federal share for this component was 
almost $1.7 million.
    In January, 2003, a cooperative agreement was executed to provide 
federal funding for the Regional Brine Line component. To date, 
Reclamation has provided about $10 million to the District as the 
federal share of costs for this facility, which will provide a means to 
dispose of brine wastes from facilities such as brackish groundwater 
recovery projects throughout Ventura County. In addition, Reclamation 
has executed a cooperative agreement with the District to provide about 
$5 million from the American Recovery and Reinvestment Act (ARRA) for a 
specific reach of the Brine Line.
    The Regional Brine Line is being constructed in three phases, 
starting with Phase 1 near the coast, and progressing inland. The 
current estimated cost of Phase 1, which includes an ocean outfall, is 
about $76 million. The 25 percent federal share of Phase 1 would be $19 
million, which would obviously be reduced slightly because Reclamation 
has already provided $1.7 million for the Conejo Creek Diversion 
Project. The last reach of Phase 1 is the ARRA-funded section, which is 
scheduled to be completed in 2011, after which this reach will be 
placed in operation.
    Due to the current ceiling, there would be no additional Federal 
funds available for Phases 2 and 3, which together are estimated to 
cost about $145 million; nor for any of the remaining seven projects 
that were identified in the feasibility study due to the current 
ceiling.
    H.R. 1219 would authorize an additional $40 million for the 
Calleguas project under Title XVI, which would establish the Federal 
funding as not to exceed 25 percent or $60 million, whichever is less.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use, this project would compete 
for funds with other needs within the Reclamation program, including 
other Title XVI projects currently under construction. In general, the 
Department supports the Title XVI Reclamation and Reuse program. The 
2011 budget proposal includes funding for the Department's WaterSMART 
Program, and Title XVI is an important element of that program. 
Specifically, the 2011 budget proposal includes $29 million for the 
Title XVI program, a 113% increase over the 2010 enacted level.
    As part of this total, the Department is requesting $20 million for 
Title XVI projects to be selected using criteria to identify activities 
most closely aligned with Title XVI statutory and program goals. On 
March 15, 2010, Reclamation posted an announcement inviting comment on 
draft funding criteria for Title XVI projects. After these criteria are 
finalized with comments received up through April 16, Reclamation will 
review and rank Title XVI project proposals received based on those 
criteria subject to appropriations in fiscal year 2011.
    Separately, in July of 2009, the Department announced the 
allocation of approximately $135 million in grants for specific 
authorized Title XVI projects using funds from the American Recovery 
and Reinvestment Act, or ARRA. We recognize that water reuse is an 
essential tool in stretching the limited water supplies in the West, 
and I believe the FY 2011 Budget request on top of the ARRA funding has 
demonstrated the emphasis placed by this Administration on this 
Program. However, given that there are 53 already authorized Title XVI 
projects and numerous competing mission priorities and demands on 
Reclamation's budget, the Department cannot support the authorization 
of new Title XVI projects or extensions of existing cost ceilings at 
this time.
    Reclamation will, however, continue to work with project proponents 
to evaluate the completeness of feasibility studies of their projects.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 2522. I would be pleased to answer any 
questions at this time.

    Senator Stabenow. Thank you very much.
    Dr. Quinn, welcome.

STATEMENT OF TIMOTHY QUINN, EXECUTIVE DIRECTOR, ASSOCIATION OF 
                   CALIFORNIA WATER AGENCIES

    Mr. Quinn. Thank you very much. Madam Chairwoman, Senator 
Brownback, thank you very much for the opportunity to appear 
here today.
    I want to commend you for holding these hearings. Your 
timing is certainly right from a California perspective. My 
name is Tim Quinn. I'm the Executive Director of the 
Association of California Water Agencies. I represent 450 
public agencies that deliver about 90 percent of the water in 
California. They are highly diverse. They all believe investing 
in these sorts of resources is essential for California's 
future and for water policy in the country.
    I've been asked to address 3 bills in particular that 
affect California. To do so, I don't pretend to be an expert on 
how you get water reclamation done. I have spent my career 
forging water policy in California, responding to crises, and 
what I'd like to do is summarize for you the policy context in 
California and why we believe that what you're considering here 
so well fits the policies that we need to go into the 21st 
century in California.
    In particular, to get to the 3 bills, ACWA strongly favors 
your favorable action to move through the process the 3 bills 
that affect California water reuse, and they are illustrative 
of the many different ways in which water reuse and more 
efficient use of water can play a role in western water 
management.
    S. 1138 and H.R. 2442 will increase water reuse in 
communities throughout the Bay Area up near San Francisco. H.R. 
637 would increase water reuse in coastal Orange County, 
specifically in the cities of San Juan Capistrano and San 
Clemente. H.R. 2522 will allow additional stages of 
construction of a brine line in northwest Los Angeles County to 
allow them to extend considerably their efforts to clean up 
contaminated groundwater and return that to useful use, 
therefore reducing demands for imported water from northern 
California.
    All sorts of different types of projects, the same theme: 
How are you more efficient about using water as part of a 
comprehensive program to right the ship in California? It 
certainly needs to be righted. We're managing water, in part 
due to drought, more due to increased, very aggressive 
implementation of the Endangered Species Act in my home State.
    The fact that we're in crisis is well understood, I think, 
by people in the Federal Government. Recently Secretary Salazar 
noted in an interview with the editorial board of the Los 
Angeles Times, he said that California economy could, quote, 
``go to hell in a handbasket,'' end quote--pardon the 
Secretary's language, but I don't think he's overstating the 
case--unless we do something about the water crisis in the 
State of California. The Secretary went on to likening our 
water situation to, quote, ``a ticking time bomb,'' end quote.
    Two weeks ago, on the House side Assistant Secretary Anne 
Castle testified before the House Energy and Water Subcommittee 
on Appropriations and said, quote: ``The situation in 
California's Bay Delta ecosystem is a full-blown crisis that 
requires all hands on deck.''
    To meet that crisis, the California legislature in November 
2009 passed a comprehensive set of legislation, controversial 
but still broadly supported. I'd like to briefly describe that 
for you and then let you understand how we think the action 
before you today fits that policy more or less like a glove, or 
at least one of the fingers of the glove.
    The legislation passed by the California legislature and 
subsequently signed by Governor Schwarzenegger contained four 
policy bills and a bond, a water bond to help finance the 
public's portion of a very aggressive, comprehensive solution 
for California. From a policy perspective, those bills focused 
California on what they call coequal goals, that is managing 
the system to reflect the fact that water supply reliability 
and ecosystem restoration are equally important as a matter of 
policy in the State of California.
    The bills include new governance institutions for how 
decisions are made about our Delta, where the Sacramento and 
San Joaquin Rivers come together. They also include for the 
first time statewide requirements for locally controlled 
groundwater monitoring and for enhanced enforcement of water 
rights provisions in the State of California, and for very 
aggressive conservation and local resource development as the 
backbone of our water supplies in the future.
    From a physical perspective, the future that is embodied in 
this legislation, think of it as a 3-legged stool and each leg 
is as important as the other. We're looking to invest heavily 
in 3 broad areas of investment. The first one is new 
infrastructure. We need a better conveyance system in our 
Delta. We need more storage to manage the system, both for 
fishery purposes and for water supply purposes, and those are 
contained in this policy.
    The second leg of the stool are habitat, investments in 
habitat and watersheds, which many in my community have thought 
that's where they found the pork in previous proposals. But if 
you truly believe in coequal values you have to invest in the 
habitat while you're investing in water supply reliability.
    The third leg of that stool is a very aggressive program to 
invest in local resources--recycling, desalination, watershed 
improvements, any place you can find to get more out of your 
local water supplies, to reduce demands on the imported 
systems. That is a central tenet, a central component of 
California's vision of its physical future, and it's in that 
context that this hearing is very welcomed because to us it's 
responsive to the government, the Federal Government, offering 
a partnership with the State government to implement one of the 
crucial legs of that 3-legged stool that California needs to 
operate its system for coequal environmental and economic goals 
in the future.
    I still have a few minutes. I want to emphasize the 
importance of the local resources, particularly the Title XVI 
program. I hear the administration, they seem to be saying, why 
don't you people slow down to our pace. But from California's 
perspective, it's imperative that we ask them to hurry up and 
catch up to us, because we don't have a lot of time. We need to 
accelerate the investments in local resources, not slow them 
down. So we would certainly urge you to move these bills and 
encourage the Obama administration to start supporting at least 
$75 million annually in its Title XVI program.
    Let me close by emphasizing that California is prepared to 
pay its portion of this comprehensive program in partnership 
with the Federal Government. I mentioned that the four policy 
bills that the legislature moved were accompanied by a water 
bond, only one of a series that the voters in California have 
approved. This will go to them in November. Very briefly, this 
bond is for $11 billion. That 11 breaks down into 3 pretty easy 
to understand pieces, a 4, a 4, and a 3, that are designed to 
fit the comprehensive policy.
    There's $4 billion from various chapters of the bond for 
local resource development, from drought relief to groundwater 
contamination cleanup to recycling and conservation efforts. 
That's the largest commitment in the history of California to 
local resource development as a part of a comprehensive plan.
    The second 4 is $4 billion for habitat improvements and 
watershed programs. The last 3 is $3 billion continuously 
appropriated to a California Water Commission for distribution 
to projects, storage projects that can be constructed and help 
the system operate, not only for water supply, but for 
temperature flow and diversion requirements that will help 
recover our fisheries.
    It's a comprehensive package and we're very pleased that 
the Federal Government is willing to partner with us on one 
important leg of that 3-legged stool.
    I would be glad to answer any questions at the appropriate 
time.
    [The prepared statement of Mr. Quinn follows:]
Prepared Statement of Timothy Quinn, Executive Director, Association of 
     California Water Agencies, on S. 1138, H.R. 637, and H.R. 2522
    Madame Chairman and members of the subcommittee, The Association of 
California Water Agencies (ACWA) appreciates this opportunity to 
present testimony on the California water bills that are part of 
today's agenda and comment on their important role in helping 
California address its ongoing water crisis, the worst in our state's 
history. My name is Tim Quinn and I am the Executive Director of ACWA. 
ACWA is the largest coalition of public water agencies in the country. 
Its nearly 450 public agency members are collectively responsible for 
90% of the water delivered to cities, farms and businesses in 
California.
    ACWA is pleased to favor S. 1138/H.R. 2442, to amend the 
Reclamation Wastewater and Groundwater Study and Facilities Act to 
expand the Bay Area Regional Water Recycling Program, and for other 
purposes; H.R. 637, to authorize the Secretary, in cooperation with the 
City of San Juan Capistrano, California, to participate in the design, 
planning, and construction of an advanced water treatment plant 
facility and recycled water system, and for other purposes; and H.R. 
2522, to raise the ceiling on the Federal share of the cost of the 
Calleguas Municipal Water District Recycling Project, and for other 
purposes. These bills are sponsored by members from both sides of the 
California delegation and demonstrate our state's overall broad and 
strong support for the Title XVI Program.
    The projects in these bills are designed to provide important 
benefits. S 1138, which builds on the success of last Congress, will 
enable the San Francisco Bay Area Recycle Water Coalition (BARWC) to 
build six new projects and fully fund two previously authorized 
projects. The regional Coalition is a partnership of fourteen public 
agencies committed to developing highly leveraged, locally managed 
recycled water as a longterm, sustainable solution for communities that 
will help ensure the security of water supplies in the Bay-Delta for 
years to come. In the past two years, the coalition partners have 
started or finished construction on 4 projects that have received 
federal appropriations, and 3 more projects are approaching 
construction. The six new projects requesting authorization today in S 
1138 will generate over 8,000 acre-feet per year of new sustainable 
water supply. It will reduce wastewater discharges to aquatic 
environments, and reduce the demand for limited fresh water from our 
fragile Bay-Delta system. Additionally, the Bay Area Recycle Water 
Coalition is requesting that the bill be amended to include three BARWC 
projects that joined the coalition since the House companion bill HR 
2442 was introduced a year ago. These three projects will yield 12,400 
AFY. With funding assistance, these projects can approach construction 
within 24 months. When added to the current projects in S 1138, the 
near-term yield is over 20,000 AFY of water, which is over 6.6 billion 
gallons per year or 18.2 million gallons per day. That's enough water 
to meet the needs of approximately 60,000 homes. Finally, the Bay Area 
coalition requests that the bill be amended to include the same 
language inserted in H.R.2442 at the request of the Congressional 
Budget Office, to clarify that funding in the bill is subject to 
appropriations.
    Another important Project, H.R. 637--the South Orange County 
Recycled Water Enhancement Act--authorizes the Bureau to participate in 
the design, planning, and construction of an advanced water treatment 
plant facility and recycled water system. This Project supports state 
efforts to improve water supply and reliability by reducing the amount 
of reusable water being discharged to the ocean, while creating a new 
source of water that does not place a burden on the limited imported 
water supply from the California Aqueduct System and the Colorado River 
Basin. The Project is critical to expanding water supply reliability. 
In partnership with local Cites and water districts, the Project would 
provide recycled water for non-potable and irrigation consumers. The 
resultant recycled water will lessen local demand on imported water and 
is a significant step towards creating a local sustainable water 
supply.
    H.R. 2522 will authorize Bureau of Reclamation support for Phases 2 
and 3 of the Calleguas Municipal Water District Recycling Project. The 
Calleguas project has been found feasible by the BOR. The Project is 
vital to Ventura County's water reliability as imported supplies become 
increasingly vulnerable to drought, climate change, catastrophic levee 
failures from flood and/or seismic events, and regulatory shutdowns of 
pumping facilities for habitat protection. The Project will improve 
water supply reliability and reduce dependence on imported water 
supplies by making it possible to put local brackish water supplies to 
beneficial use. By treating groundwater to remove salts and moving 
those salts away from surface waters and groundwater, water agencies in 
Ventura County solve a water quality problem, while improving local 
water supply reliability. Completion of Phases 2 and 3 of the Project 
will facilitate the reclamation and reuse of about 43,000 acre-feet per 
year of water.
    Madame Chairman and members of the subcommittee, on behalf of 
ACWA's Board of Directors, I want to commend you for convening this 
hearing. The hearing is especially timely. California is experiencing 
an immediate and urgent crisis in water supply as a result of the 
combined effects of drought and increasingly stringent regulation under 
the Endangered Species Act. In March, Secretary of the Interior Ken 
Salazar, in an interview with the editorial board of the Los Angeles 
Times said, ``I would say that the people of California recognize that 
water is the lifeblood of their communities. . .and the economy is 
going to go to hell in a hand basket in California unless something 
happens that is credible with respect to the water supply issues--
north, south and the bay delta. So I would just say California. . .  
You're sitting on a ticking time bomb, and you better get your act 
together, because otherwise the bomb's going to go off.'' (L.A. Times, 
March 22, 2010)
    And two weeks ago, Anne Castle, the Assistant Secretary for Water 
and Science, Department of Interior, testified to the House Energy and 
Water subcommittee on appropriations that ``The situation in 
California's Bay-Delta ecosystem is a full-blown crisis that requires 
all hands on deck.''
    In November 2009, the state of California passed historic 
legislation to tackle the water crisis head-on. The legislative 
package, which includes four policy bills and a proposed water 
resources bond, makes it the policy of California to achieve the 
``Coequal goals. . .of providing a more reliable water supply for 
California and protecting, restoring, and enhancing the Delta 
ecosystem.''
    To accomplish the coequal goals, the legislation calls for the 
implementation of an aggressive, comprehensive water management program 
that requires investment in three broad areas:

          1) New infrastructure, including improved conveyance in the 
        Sacramento-San Joaquin Delta and new surface and groundwater 
        storage;
          2) Habitat restoration and watershed improvements to help 
        restore natural functions in the ecological system; and
          3) Local water resource development projects, including water 
        recycling, brackish and sea water desalination, water use 
        efficiency and other projects to increase local water supply 
        resources and thereby reduce demands for imported water.

    This hearing provides assurances that Congress recognizes the 
urgency of the California water crisis and is acting to support the 
implementation of key elements in the California comprehensive water 
management strategy. Recycling projects like those in northern and 
southern California under consideration here today are an extremely 
important source of new supply from ACWA's statewide perspective. They 
are vital to meeting growing water demands in a manner consistent with 
the state's new comprehensive water management strategy. To the extent 
their implementation can be significantly accelerated, these projects 
can help combat the immediate crisis in California arising from 
drought, and excessively restrictive regulations on water supply under 
the Endangered Species Act.
    In her testimony, Secretary Castle said Interior ``continues to 
aggressively pursue a comprehensive water supply and restoration plan'' 
for California. Part of this plan is their newly announced WaterSMART 
program. Interior is requesting $29 million in Fiscal Year 2011 to fund 
projects such as the ones we are discussing today through the Title XVI 
program. ACWA welcomes Interior's support for increased funding for the 
Title XVI program but recommends at least $75 million each year should 
be requested by the Department to help reduce the large backlog of 
unfunded authorized projects. This could leverage at least $225 million 
per year of local dollars into the program.
    ACWA also commends the proposal by Rep. Grace Napolitano, Chair of 
the House Water and Power subcommittee that the Obama Administration 
commit to establishing a $200 million Title XVI Program foundation with 
a goal of creating up to 1 million acrefeet of water within a timeframe 
of the next 48 to 60 months.
    California is more than prepared to pay its share of the costs of 
this urgently needed comprehensive program. In the past decade, 
California voters and water rate payers have invested billions for 
better water management and ecosystem improvements in our state. The 
recent legislation includes not only four policy bills, but also an $11 
billion bond. If approved by the voters in November, the ``Safe, Clean, 
and Reliable Drinking Water Supply Act of 2010'' would provide the 
largest financial boost in history--more than $4 billion for local 
resource development including additional water recycling. The 
remaining funds in the bond would help finance habitat restoration in 
the Delta watershed improvements statewide (about $4 billion), and 
public benefits from new storage infrastructure ($3 billion).
    The California bills before you today are one important part of the 
comprehensive solution that ACWA's members are seeking. ACWA believes 
the projects contained within S 1138, HR 2522, and HR 637 can provide 
vital water supply and other benefits. If fully appropriated, these 
projects combined would leverage $116.7 million in federal funding with 
$371.1 million in local funding. And perhaps most importantly, as the 
WateReuse Association has previously testified to this subcommittee, 
other significant project benefits could include: ``Environmental 
benefits realized through the conversion of treated wastewater into a 
valuable new water supply; Reduction of the quantity of treated 
wastewater discharged to sensitive or impaired surface waters; Reduced 
dependence on the Colorado River and on the Bay-Delta System, 
especially during drought years when conflicts on both of these water 
systems are particularly intense; Creation of a dependable and 
controllable local source of supply; Reduced demand on existing potable 
supplies; and Energy benefits realized by the replacement of more 
energy intensive water supplies such as pumped imported water with less 
energy intensive water sources like recycled water.''*
---------------------------------------------------------------------------
    * Testimony The Bureau of Reclamation's Reuse and Recycling 
Program.
---------------------------------------------------------------------------
Conclusion
    Madame Chairman and members of the subcommittee, thank you again 
for the opportunity to present testimony today. In summary: ACWA is 
pleased to favor the California bills before you today as one important 
part of a comprehensive solution to achieving the co-equal goals of 
restoring environmental health and providing a more reliable water 
supply to California. This completes my statement. At the appropriate 
time, I would be happy to answer any questions that you may have.

    Senator Stabenow. Thank you very much.
    Mr. Brookshier, welcome.

 STATEMENT OF ED BROOKSHIER, CITY MANAGER, CITY OF HERMISTON, 
                         HERMISTON, OR

    Mr. Brookshier. Thank you, Chairwoman Stabenow, Senator 
Brownback. Thank you for holding this hearing and allowing me 
to testify in support of S. 1573 that will authorize the Bureau 
of Reclamation to participate in the construction of the city 
of Hermiston's water recycling project. My name is Ed 
Brookshier and I am the City Manager for the city of Hermiston, 
Oregon.
    I want to publicly thank Senator Ron Wyden for his time 
today and for introducing this important piece of legislation 
that is crucial to the city's reclamation and reuse of its 
municipal wastewater. This reclamation effort will provide high 
quality class A recycled water for reuse as a source of 
irrigation supply.
    The city's recycled water production is estimated to be 
3600 acre-feet annually, of which half will go to toward 
supplying irrigation and half will be discharged to the 
Umatilla River, which is a quality-controlled salmonid stream 
in the winter. This new partial source of drought-proof 
irrigation water will provide an added supply to the Bureau of 
Reclamation-owned and locally operated West Extension 
Irrigation District.
    A comprehensive feasibility study has been completed on the 
project and the Bureau of Reclamation has certified that it 
meets the requirements to be eligible for the Bureau's Title 
XVI water rycycling program.
    Hermiston, Oregon, is a progressive, growth-oriented urban 
center in the northeast part of Oregon with a total trade 
population of approximately 300,000 people. We are located in a 
relatively dry section of the State, positioned between the 
Cascade Mountains to the west and the Blue Mountains to the 
east. Hermiston is placed in a unique geographical area that 
offers an extended growing season and a variety of agricultural 
crops and products.
    The benefits of developing a high-quality source of 
recycled water, followed by its use as a source of irrigation, 
are numerous and extend to the West Extension Irrigation 
District, the city of Hermiston, the Confederated Tribes of the 
Umatilla Indian Reservation, and the region as a whole.
    The West Extension Irrigation District benefits from this 
project by obtaining an additional source of supply which is 
both high in quality and drought-proof. Since water is 
delivered to the district, energy required for pumping is also 
reduced by approximately $13,000 a year annually. In addition, 
the 1800 acre-feet of irrigation water provided annually will 
supply water to 600 acres, reducing the demand for the 
district's surface water supplies. Finally, this added supply 
source of irrigation water improves the district's operational 
flexibility.
    The Confederated Tribes of the Umatilla Indian Reservation 
will also benefit from development of high-quality recycled 
water throughout the year. These benefits include a significant 
improvement in the quality of recycled water discharged to the 
Umatilla River in winter, further protecting sensitive salmonid 
habitat during summer when the recycled water is used for 
irrigation.
    The region as a whole benefits from treatment that develops 
high-quality recycled water. This water source is protective of 
the environment in both summer and winter and provides an added 
source of irrigation supply to agriculture, which is the 
backbone of the Hermiston economy.
    Madam Chairwoman, while I understand and appreciate the 
strict budgetary limitations that your committee and Congress 
as a whole are faced with, I believe that the Hermiston 
recycled water facility is a worthwhile Federal investment due 
to the numerous Federal objectives that will be advanced 
through this project. Combined with the serious regulatory 
issues which the city of Hermiston faces and the need for 
additional drought-proof sources of recycled water for 
irrigation, it is essential that we complete construction of 
this project in a timely manner. Federal participation in this 
endeavor is vital to assure that this becomes a reality.
    This concludes my testimony and I would be happy to answer 
any questions you may have. Thank you.
    [The prepared statement of Mr. Brookshier follows:]
 Prepared Statement of Ed Brookshier, City Manager, City of Hermiston, 
                             Hermiston, OR
    Chairman Stabenow and Members of the Subcommittee, thank you for 
holding this hearing and allowing me to testify in support of S.1573, 
that will authorize the Bureau of Reclamation to participate in the 
construction of the City of Hermiston Water Recycling Project. My name 
is Ed Brookshier and I am the City Manager for the City of Hermiston, 
Oregon. I wish to publicly thank Senator Ron Wyden for introducing this 
important piece of legislation that is crucial to the City's 
reclamation and reuse of its municipal wastewater. This reclamation 
effort will provide a high quality recycled water for reuse as a source 
of irrigation supply. The City's recycled water production is estimated 
to be 3,600 acre-feet annually, of which 1,800 Acre-feet will supply 
irrigation and 1,800 acre-feet will be discharged to the Umatilla River 
in winter. This new partial source of drought proof irrigation water 
will provide an added supply to the Bureau of Reclamation owned and 
locally operated West Extension Irrigation District. A comprehensive 
feasibility study has been completed on the project and the Bureau of 
Reclamation has certified that it meets the requirements to be eligible 
for the Bureau's Title XVI Water Recycling Program.
    Hermiston, Oregon is a progressive, growth-oriented urban center 
with a total trade area population of 320,900. Located in a relatively 
dry section of the state of Oregon, positioned between the Cascade 
Mountains to the west and the Blue Mountains to the East, Hermiston is 
placed in a unique geographical area that offers an extended growing 
season and a variety of agricultural crops and products. The immediate 
Hermiston area has been able to diversify its economy with food 
processing, cold storage and warehousing and distribution facilities.
    The benefits of developing a high quality source of recycled water 
followed by its use as a source of irrigation are numerous and extend 
to: The West Extension Irrigation District, the City of Hermiston, The 
Confederated Tribes of the Umatilla Indian Reservation and the region 
as a whole.
    The West Extension Irrigation District benefits from this project 
by obtaining an additional source of supply, which is both high in 
quality and drought proof. Since water is delivered to the District, 
energy required for pumping is also reduced by approximately $13,000 
annually. In addition, the 1,800 acre-feet of irrigation water provided 
annually will supply water to 600 acres, reducing the demand on the 
District's surface water supply sources. Finally, this added source of 
partial irrigation water improves the District's operational 
flexibility.
    The City of Hermiston benefits primarily through meeting its 
upcoming National Pollutant Discharge Elimination System Permit 
(NPDES). This permit requires the City to both develop a high-quality 
recycled water and remove its discharge from the Umatilla River 
continuously from April 1 to October 31 of each year. The West 
Extension Irrigation District provides the long term, multi-farm 
discharge option that allows the City to remove its discharge from the 
River during this period of each year. If the City is unable to 
discharge to the District it will be in continuous violation of current 
temperature standards and periodic violation of the ammonia standard 
contained within the City's NPDES Permit. Secondary benefits to the 
City include a reduction in energy cost from reduced pumping, estimated 
to be $42,000 annually, and the certainty that this solution, though 
expensive, will provide service for decades to come.
    The Confederated Tribes of the Umatilla Indian Reservation will 
also benefit from development of high-quality recycled water throughout 
the year. These benefits include a significant improvement in the 
quality of recycled water discharged to the Umatilla River in winter, 
further protection of sensitive salmonid habitat during summer when the 
recycled water is used for irrigation in lieu of River discharge, 
increased environmental monitoring at the recycled water treatment 
facility and the long-term nature of this solution.
    The region as a whole also benefits from treatment that develops 
high-quality recycled water. This water source is protective of the 
environment in both summer and winter and provides an added source of 
irrigation supply to agriculture, which is the backbone of the 
Hermiston economy. The Hermiston Water Recycling Project is estimated 
to be completed and online in 2 \1/2\ years. This effort will have an 
immediate economic impact to our local economy as much needed jobs will 
be created through an infrastructure project of this size. More 
importantly, the addition of the new and reliable water source created 
by this project will have a profound long-term impact to the farming 
industry in our area which faces an uncertain future due to dwindling 
water supplies.
    Madam Chairman, while I understand and appreciate the strict 
budgetary limitations that your Committee and Congress as a whole are 
faced with, I believe that the Hermiston Recycled Water facility is a 
worthwhile federal investment due to the numerous federal objectives 
that will be advanced through this project. Combined with the serious 
regulatory issues the City of Hermiston is faced with and the need for 
added drought proof sources of recycled water in the Hermiston Area for 
irrigation, it is essential that we complete construction of this 
project in a timely manner. Federal participation in this endeavor is 
vital to ensure that this becomes a reality.
    This concludes my testimony. I will be happy to answer any 
questions that you may have.

    Senator Stabenow. Thank you very much.
    We'll now open for questions. First I would ask Ms. 
Finkler. In the testimony, you're indicating that the 
administration supports efforts to increase local water 
supplies through recycled water use and that Reclamation has 
increased funding for Title XVI for the next fiscal year, but 
that you can't support the authorization of new Title XVI 
projects at this time. So in the face of increasing concerns 
about water availability, whether due to drought, climate 
change, environmental needs, population increases, what else do 
you think can be done to help address the funding backlog that 
exists for these projects?
    Ms. Finkler. Thank you, Senator. I think that the criteria 
that we are currently working on we hope will help address the 
backlog by providing some useful metrics that we can review and 
rank and prioritize proposed projects that will give us the 
best bang for our buck, that would be the most cost effective, 
and, hopefully coupled with the additional resources in the 
2011 budget, as you mentioned, along with the Recovery Act 
money, that will help us address the backlog that exists.
    Senator Stabenow. I know you've received comments regarding 
the new criteria. Have you had a chance to really synthesize 
that? I'm wondering if you're anticipating any major revisions 
to the criteria and, if so, when would you anticipate that 
coming out?
    Ms. Finkler. Thank you, Senator. My understanding is that 
right now we're just continuing to go through the comments. We 
received about 18--comments from about 18 different entities. 
Most of the comments were minor tweaks and we expect to have 
the final criteria posted some time in June.
    Senator Stabenow. During a recent workshop in California, 
Reclamation and other Federal agencies announced a proposal to 
initiate some water use and recycling test cases. Have there 
been any further developments regarding those proposed test 
projects?
    Ms. Finkler. Yes, thank you, Senator. This is part of the 
administration's effort to really have an ``all hands on deck'' 
attitude and working toward the California challenges. There 
has been a regional team put together of Department of 
Agriculture, Department of the Interior, EPA, as well as the 
relevant State agencies to take the information that we 
received at the roundtable in Sacramento and, based on that and 
sharing of information about how best we could cooperate and 
coordinate our programs, that they would come up with some 
draft proposals.
    Then we have committed to a public meeting later this 
summer where we can share those draft proposals and get some 
feedback from the public.
    Senator Stabenow. Dr. Quinn, did you have any comments 
related to that? I don't know if you would want to comment at 
all on the test projects that they're talking about?
    Mr. Quinn. Not at this time, thank you.
    Senator Stabenow. Thank you. Great.
    Then regarding S. 1573 related to the project in Hermiston, 
which involves the use of the Title XVI program to create 
recycled water that can be used in irrigation, municipal and 
tribal purposes, is this a project--is this a good example of 
the wide variety of projects that can be funded through Title 
XVI?
    Ms. Finkler. I think so, yes. The fact that you're using 
the water to irrigate agricultural lands is a great way to 
diversify the uses of Title XVI, as well as here there are 
multiple benefits, as you mentioned, that there would be 
benefits for the ag land, for the community, and also for the 
environment.
    Senator Stabenow. Let me ask, Dr. Quinn. Several of the 
projects you testified about have yet to receive a feasibility 
determination from the Bureau of Reclamation, which makes it 
difficult for the committee to determine which one of those 
should move forward at this point. Are you aware of any 
problems those project proponents are experiencing in obtaining 
the feasibility determinations?
    Mr. Quinn. I don't have specific knowledge of that. I can 
certainly check with the project proponents. As I indicated, 
I'm not here so much as an expert on those individual projects 
as I am for how they fit into the broader policy framework 
we're trying to develop in California.
    Senator Stabenow. Sure, I understand.
    Does the Association of California Water Agencies support 
Reclamation's efforts to develop criteria to assist in 
prioritizing funding? What comments did the agency submit 
regarding the proposed criteria?
    Mr. Quinn. We do support their efforts, subject to the 
important caveat that we would like to see it be part of 
accelerating implementation of these projects instead of a 
reason for not implementing such projects. Like a lot of 
others, we have specific concerns, but are more than willing to 
work in good faith with Reclamation to deal with those specific 
comments, and can certainly see the value of having a well 
thought out set of criteria to guide those dollars to projects 
quicker so that we can get projects out there sooner.
    Senator Stabenow. Thank you.
    My time is up. I'll turn it to Senator Brownback.
    Senator Brownback. Thanks, Madam Chairwoman.
    Ms. Finkler, how much of the $135 million in grants 
authorized under the ARRA for Title XVI projects has been spent 
and how much has been obligated?
    Ms. Finkler. Thank you, Senator. To date $93.4 million has 
been obligated and $3.4 million has been spent.
    Senator Brownback. So you've got still roughly what, $42 
million that hasn't been obligated?
    Ms. Finkler. That's right. Also, just to provide a little 
bit more information on the actual money that's spent, the 
proponents are really in the driver's seat once the money has 
been obligated to get to the next point of it actually being 
spent or have us writing the check. We would wait for them to 
submit their cost to us and then we reimburse those costs.
    Senator Brownback. I guess the point I want to make sure 
that I get to, if you've got $42 million that's unobligated at 
this point, but you're opposed to all of these projects based 
on funding, I take it, where's that $42 million going to go?
    Ms. Finkler. That's a good question. We went through a 
process once the Recovery Act funding was made available to set 
up criteria based on the Recovery Act, so how quickly you can 
get the money out the door. Then there are a series of steps 
that need to take place before the project is ready to go for 
construction, such as completing the feasibility study, making 
sure all the NEPA and other environmental clearances are done. 
There has to be an approved determination of financial 
capability, and then finally completing the cooperative 
agreement for financial assistance.
    So my guess is--and I can find out for certain and provide 
this for the record if that's all right--my guess is that those 
are still completing that process.
    Senator Brownback. Of these projects that you're opposed to 
today?
    Ms. Finkler. No. The ones that would be funded with the 
Recovery Act are ones that have already been authorized by 
Congress.
    Senator Brownback. I guess maybe I'm a bit confused. You're 
opposing all these on funding grounds. You've got $42 million 
that's unobligated, but you're saying these are too far back in 
the approval process, they need more work before they can 
qualify for the $42 million?
    Ms. Finkler. We have actually--the whole backlog for the 
Title XVI authorized projects is about $620 million. So the 
Recovery Act will help us with the backlog, but even with the 
$40 million, as you mentioned, there's still a large backlog of 
the ones that have already been authorized by Congress. The 
ones before us today are ones that actually have not been 
authorized by Congress, so they are further behind in the 
queue. Does that make sense?
    Senator Brownback. Yes, that helps me a lot.
    Dr. Quinn, you said that the Endangered Species Act is 
hitting water problems in California in a major way? Did I get 
your statement right on that?
    Mr. Quinn. Yes, you did, sir.
    Senator Brownback. Can you quantify that for me?
    Mr. Quinn. In terms of the water supply? Let me give you 
just one example.
    Senator Brownback. Yes, just how much water is the 
Endangered Species taking out of the system for California to 
be able to use?
    Mr. Quinn. During an 8-week period from the middle of 
January to the middle of March, the Endangered Species Act 
restrictions on the system cost water suppliers south of the 
Delta 478,000 acre-feet of water.
    Senator Brownback. 478,000 acre-feet of water?
    Mr. Quinn. That's almost the amount of water that the 
entire city of L.A. would use for a year.
    Senator Brownback. Wow.
    Mr. Quinn. We are talking very large volumes. We are 
struggling with very high levels of conflict between what the 
species need and water supply needs, and it has risen to truly 
crisis proportions.
    Senator Brownback. Nearly half a million acre-feet of water 
pulled out of the system, is that correct?
    Mr. Quinn. In an 8-week period. That was water that was 
previously, before the biological opinions we're operating 
under now, you could have pumped that water and today we were 
not allowed to pump that water. Oftentimes, because of rules to 
protect fisheries, we were highly skeptical that the fisheries 
were actually getting much protection.
    Senator Brownback. Is there an appeal going on about that?
    Mr. Quinn. We went for 10 years without suing each other in 
California. We've gotten past that now and there are some--
there are dozens and dozens of lawsuits. In particular, there 
are before a Federal court in Fresno, there are cases involving 
both the Delta smelt biological opinions and the salmon 
biological opinions.
    Senator Brownback. Should we be considering amendments in 
Congress on this to give some alleviation? Because I think it's 
pretty obvious, if you've got $600 million in projects ahead of 
you and we've got $42 million allocated, I don't see a whole 
lot of likelihood that number's going to tenfold increase for 
you. It doesn't look like this is going to be very likely to 
move any time soon--Ms. Finkler, you can correct me on this--
and otherwise you're just going to be left where you are.
    Mr. Quinn. Let me answer it this way. It has been suggested 
that part of the solution is changes in the act here in the 
Congress. My organization has not taken a position one way or 
another on that legislation. With that said, we believe it's 
imperative that we change how we're implementing the Endangered 
Species Act in California, probably elsewhere, to get better 
results both for water supply and for the species we're trying 
to protect.
    ACWA also strongly believes that aggressive implementation 
of local resources like the Title XVI project, let's accelerate 
them, get them implemented faster. We believe that too can be 
part of a solution to manage the system in the near term as 
well as the long term.
    Senator Brownback. It seems like some flexibility here 
might be prudent, at least for a period of time, to figure out 
some of these localized solutions that can address the 
endangered species need, but also the clear water needs, too.
    Mr. Quinn. We believe the Interior Department has the 
flexibility to work with us to come up with better ways to 
manage the system.
    Senator Brownback. Good.
    Thank you, chairwoman.
    Senator Stabenow. Thank you.
    Just one follow-up question, Dr. Quinn, on that. It sounded 
like from your formal testimony in the beginning that this was 
implementation, California implementation as it relates to the 
Endangered Species Act; is that right or no?
    Mr. Quinn. I don't think so.
    Senator Stabenow. OK.
    Mr. Quinn. If I said that, I misspoke.
    Senator Stabenow. OK. That's what I was trying to clarify 
for sure, because that is a Federal statute.
    Mr. Quinn. We have a State Endangered Species Act that's 
playing a role here as well.
    Senator Stabenow. It is also playing?
    Mr. Quinn. We get to wrestle with both.
    Senator Stabenow. OK, thank you.
    Mr. Brookshier, have you done a calculation of how much the 
recycled water produced by the project that you're sponsoring 
will cost as compared to the current water supply for 
irrigation uses? I guess I would say if it's more expensive, is 
it important to have an alternative supply because the existing 
supply is insufficient or unreliable?
    Mr. Brookshier. The existing supply may not be expanded, so 
in a sense the value of this added water may not be calculated. 
I think if you put it on a per-acre-foot basis versus the cost 
of the project, $500--$700, $700 per acre-foot. But again, to 
emphasize that there is no--the district there does not have 
any other source of water, and actually they're in a position 
where they may be calling in some other rights in the area that 
would be quite detrimental to the general agricultural economy 
in the area.
    We estimate that this project in ag retention represents 
several hundred jobs, because that's how critical it is for the 
district that we're working with on this.
    Senator Stabenow. So it really is a question of 
insufficient?
    Mr. Brookshier. Yes, yes.
    Senator Stabenow. You don't have the water.
    Mr. Brookshier. There simply is no more water, that's 
correct.
    Senator Stabenow. Does the city receive compensation from 
the West Extension Irrigation District for the recycled water?
    Mr. Brookshier. No, no. This will be provided at no cost to 
them. Actually, it's still a benefit to us. It's a gravity 
system. We will save on our current pumping costs, so there's 
some energy savings involved here. Again, it meets our 
temperature needs that we have to adhere to during summer 
months because of the salmonid issue. So it's an excellent, 
excellent situation for the city as well as the district, and 
the tribal government as well, in terms of their salmonid 
interests.
    Senator Stabenow. You mentioned the tribes, so I assume 
there are agreements in place with the Consolidated Tribes?
    Mr. Brookshier. Yes. We have--in fact, I think it's been 
introduced into the letter or into the record--a recommendation 
in support of the project from the tribes. I think they 
recognize--I know they recognize it as the best answer to 
summer temperature issues while providing a very, very, very 
high quality of recycled water into the streams during winter 
low flow months. So they do consider it of benefit.
    Senator Stabenow. Could you explain in more detail how the 
city plans to use the recycled water to help meet the 
requirements of the city's national pollutant discharge 
elimination system, which is authorized by the Clean Water Act?
    Mr. Brookshier. Right, right. Those are primarily 
temperature issues. Between April and October of each year, 
under our forthcoming permit we will not be--we simply cannot 
meet temperature requirements during those months. One way or 
the other, we have no choice but to get out of the river during 
that period. The opportunity to put that to reuse with our 
irrigation community that so much needs the supply is a win-win 
for both of us.
    Senator Stabenow. Thank you.
    Dr. Quinn, S. 1138 is supported by the Bay Area Recycling 
Coalition. I wonder if you might speak a little bit about the 
benefits for having a regional basis, a regional agreement? 
What are the examples of the positives that you've found in 
working together on a regional basis?
    Mr. Quinn. Just by way of background, before I came to my 
current job I worked for the Metropolitan Water District of 
Southern California, which is of course a regional water 
manager that gets good advantage out of economies of scale in 
developing these kinds of projects. What's happening in 
northern California is something like that. There are 14 
agencies, cities and public water agencies that have formed a 
coalition, the Bay Area Recycled Water Coalition.
    What's before you now is one of the steps that they're 
trying to take to cooperate to build themselves to a scale 
where you might not have a demand for the water, but your 
neighbor might have a demand for the water coming out of your 
recycling plant, so by combining together they can get to much 
better economics, much broader application of recycling water 
and efficiencies.
    I commend them for going through the hard work to develop 
these regional alliances, because it's not always easy to 
overcome some of the provincial boundaries of individual local 
agencies.
    Senator Stabenow. Sure, absolutely.
    How does the development of more water recycling projects 
in southern California decrease the need for imported water 
from the California Bay Delta or the Colorado River System?
    Mr. Quinn. It's pretty much an acre-foot for acre-foot. 
Think of it as a recycling project allows you to get much more 
use, much more efficiency, out of that imported acre-foot of 
water. So instead of using it once and letting it run down the 
Santa Anna River and out to the ocean, you're using it multiple 
times, which reduces the number of acre-feet that you need to 
move over the Tehachapi Mountains or from east to west through 
the Colorado River Aqueduct.
    Recycling projects are the No. 1 way in which southern 
California will reduce its demands for imported water in the 
future, and they're absolutely committed to do that. They know 
they need to fix the import system, particularly in the Bay 
Delta, to lower conflict between water supply operations and 
what the fisheries need. But southern California is absolutely 
committed to their growth being met through increased 
efficiencies and local resource development. So it's vital in 
that regard.
    Senator Stabenow. Thank you.
    Finally, you've talked about the fact that your 
organization supports at least $75 million per year in funding 
for Title XVI. Yet, given all the projects that we're looking 
at, we're still looking at tremendous needs at this point that 
wouldn't be addressed by that, and several years of efforts 
before we could truly address those.
    From your perspective, is there anything else that should 
be done at this point, or is it all a matter of resources?
    Mr. Quinn. I'm not sure exactly how to answer that 
question. If I'm not hitting the mark, please ask it again. My 
organization, my State, believes we have to have a 
comprehensive solution. We think it's appropriate to ask for 
some assistance from Washington through the Title XVI program, 
but the vast amount of money to be spent on this comprehensive 
solution is going to come in California, in part from bonds and 
in major part from water rates going up.
    Virtually all of my member agencies are struggling with 
their local publics because they're having to raise water rates 
to cope in the 21st century to accomplish coequal goals. So we 
have no choice but to strive to aggressively implement a 
comprehensive program, of which these recycling projects are an 
important part. As I said, I think our strategy has to be to 
say to the administration, please catch up to us, don't ask us 
to slow down to you.
    Senator Stabenow. Thank you very much. We appreciate very 
much both of you traveling to be here today.
    Ms. Finkler, H.R. 1393 is a bill to authorize additional 
water conservation projects as part of the Lower Rio Grande 
Valley Water Resources Conservation and Improvement Act of 
2000. Your testimony indicates that the administration can't 
support authorization or funding for those projects that have 
not undergone rigorous administration review. What should the 
project sponsors do to obtain the necessary review? Are there 
standards in place that would guide them regarding the review 
process?
    Ms. Finkler. Thank you, Senator. The original law in 2000 
that created this program actually required us to come up with 
some criteria for the original 19 projects. So we would 
implement, if this bill were enacted into law, implement in the 
same way, using that same criteria. It's similar criteria to 
feasibility studies for Title XVI, the Title XVI program. So I 
would think that the project proponents of these additional 
projects would--should look to that criteria that we've been 
using for the original projects.
    Senator Stabenow. Regarding an additional project, H.R. 
325, your testimony notes that the Bureau has not yet prepared 
a feasibility report for the Avra/Black Wash Project in Arizona 
and that the necessary technical studies have not been 
completed. Similar testimony was also provided about this 
project in 2008. Has Pima County done any technical work which 
has been submitted to the BOR for review, and does the Bureau 
know the basis for the $14 million authorized for the project?
    Ms. Finkler. Thank you, Madam Chair. No, I don't know the 
basis for their estimated cost. Since we last testified in 
2008, we haven't received any additional substantive 
information from the county with respect to any engineering or 
technical information that would allow us to proceed forward.
    Senator Stabenow. Thank you. I believe that at this point 
I've completed the questions that I have and we'll conclude for 
the day. This hearing is adjourned. Thank you very much.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Ed Brookshier to Questions From Senator Brownback
    Question 1. How much ARRA funding has Oregon received to help 
finance Title XVI projects?
    Answer. Oregon has received no ARRA funding to help finance Title 
XVI projects. Citations: http://recovery.doi.gov/press/bureaus/bureau-
of-reclamation/title-xvi-projects/ http://www.waterandwastewater.com/
www_services/news_center/publish/article_001757.shtml
    Question 2. Beyond the certification of the feasibility study, 
where in the process is the city and the BOR for determining federal 
environmental compliance actions, water contracts, determination of the 
project sponsor's financial capability and so on?
    Answer. The City has completed the environmental compliance process 
for funding under the Clean Water State Revolving Fund (CWSRF) program. 
The CWSRF environmental process was modeled after the National 
Environmental Policy Act (NEPA) requirements. Because the CWSRF is 
federally funded by the U.S. EPA and disbursed by the Oregon Department 
of Environmental Quality (DEQ), EPA has consulted with several federal 
agencies regarding the City's proposed project. Results included a 
Final Biological Opinion from the National Marine Fisheries Service 
(NMFS) and an informal consultation letter from US Fish and Wildlife 
Service (USFWS). Based on our discussions with the Bureau of 
Reclamation (BOR) staff the NEPA process is anticipated to be completed 
quickly and will be based largely on significant work completed for the 
CWSRF process. Based on the strength of the CWSRF review we do not 
anticipate that additional reports or data will be required to complete 
the NEPA process.
    The City will be required to apply for and obtain Removal-Fill 
permits from the Oregon Division of State Lands (ODSL) and from the 
U.S. Army Corps of Engineers for the Phase II in-water portion of the 
project necessary to install the winter outfall to the Umatilla River. 
The Endangered Species Act consultation completed in March 2010 
provides the materials and guidance necessary to obtain both permits.
    The City and West Extension Irrigation District (WEID) have 
developed and signed a Memorandum of Understanding (MOU) establishing 
the mutual value of working to develop a recycled water discharge to 
WEID for the future. Based on the strength of the MOU, both are 
actively engaged with BOR in developing the operating agreement for 
delivery of this Class A recycled water to WEID's distribution canal. 
The operating agreement is expected to be finalized within three 
months.
    Determination of the project sponsor's financial capability is 
expected to be completed within one month.
                                 ______
                                 
                  Association of California Water Agencies,
                                      Sacramento, CA, May 20, 2010.
Hon. Chairwoman Stabenow,
Hon. Ranking Member Brownback,
U.S. Senate, Committee on Energy & Natural Resources, Subcommittee on 
        Water and Power, 304 Dirksen Senate Building, Washington, DC.
    Dear Senators Stabenow and Brownback: Thank you for the opportunity 
to respond to your additional questions regarding my testimony before 
the Subcommittee on April 27, 2010. As you know, ACWA's 450 public 
water agency members supply over 90 percent of the water delivered in 
California for residential, agricultural and industrial uses. I am 
providing you with our Association's broader observations based upon 
the hearing as well as specific answers from the project sponsors.
General Observations
    1) The Association of California Water Agencies (ACWA) strongly 
believes the Title XVI program does not require a project to obtain 
feasibility certification prior to obtaining congressional 
authorization. Rather, a project must be authorized, secure a 
feasibility determination, complete NEPA compliance, and satisfy 
financial capability before it can receive appropriations for 
construction. Requiring feasibility determinations to be complete prior 
to securing congressional authorization has not been required for past 
authorizations and would substantially delay implementation of 
worthwhile projects.
    Congressional authorizations for Title XVI projects give 
Reclamation the official authority ``to participate in the design, 
planning, and construction of facilities to reclaim and reuse water.'' 
It is during the planning process that project sponsors work with 
Reclamation to secure a feasibility determination, as well as complete 
NEPA. Once that is complete, then the project sponsor and Reclamation 
have the ability to pursue appropriations that can fund up to 25% of a 
project cost with a cap per project of $20 million.
    Reclamation allows a six month review period of a feasibility study 
prior to making a determination. The project sponsor spends several 
months or more before this submittal developing and gathering the study 
materials, and additional time to address Reclamation review comments. 
Therefore, the timeline for a project to complete feasibility seems to 
be taking a minimum of a year. Obtaining authorization has typically 
been a two-year process. These processes should run in parallel, not 
series, so that ready-to-go water projects are not unnecessarily 
delayed an additional two to three years.
    2) ACWA believes the project sponsors are making good faith efforts 
to partner with Reclamation throughout the Title XVI process and have a 
solid track record of responsiveness and complying with all statutory 
requirements. For example, the City of San Juan Capistrano will now be 
working with the Bureau of Reclamation to begin the feasibility study 
for the City's recycled water project. The study will provide an 
outline on the City's existing water supply that would be supplemented 
with recycled water for non potable use. In addition, the study will 
analyze the main project components, provide a detailed overview of the 
project purpose and need and examine all project alternatives. The 
feasibility study is expected to take no longer than a year to 
complete.
    3) ACWA would again like to commend you for holding a hearing on 
Title XVI bills. By doing so, you have provided assurances that 
Congress recognizes the urgency of the California water crisis and is 
acting to support the implementation of key elements in the California 
comprehensive water management strategy. Recycling projects in northern 
and southern California are an extremely important source of new supply 
from ACWA's statewide perspective. They are vital to meeting growing 
water demands in a manner consistent with the state's new comprehensive 
water management strategy. To the extent their implementation can be 
significantly accelerated, these projects can help combat the immediate 
crisis in California arising from drought, and excessively restrictive 
regulations on water supply under the Endangered Species Act.
    Thank you again for this opportunity to answer your additional 
questions. The following answers are provided by ACWA in collaboration 
with the project sponsors.
            Sincerely,
                                             Timothy Quinn,
                                                Executive Director.
[Enclosure.]
              Responses to Questions From Senator Stabenow
    Question 1. Please describe the efforts made by the project 
proponents in S. 1138 and H.R. 637 to ensure that the statutory 
requirements for moving forward with a Title XVI project have been met, 
including, but not limited to, obtaining a feasibility determination 
from Reclamation.
    Answer. S. 1138: The 14 agency Bay Area Recycled Water Coalition 
projects have a solid track record of complying with all statutory 
requirements for Title XVI projects. The Coalition meets monthly with 
Reclamation staff at the Mid-Pacific Region to discuss project needs 
and review status. Each agency pursues reimbursable agreements with 
Reclamation to further engage staff for guidance on feasibility study 
development and in-depth environmental review. To date, seven projects 
authorized in 2008, and two of the nine Bay Area projects seeking 
authorization have secured feasibility determinations and the remaining 
feasibility determinations are in process and will be completed prior 
to the construction phase. It is incumbent on each agency to respond 
quickly to Reclamation requests to help avoid delays and potential loss 
of momentum. The regular monthly meetings with Reclamation staff have 
helped to minimize delays.
    A feasibility determination is not required prior to project 
authorization. Congressional authorizations for Title XVI projects give 
Reclamation the official authority ``to participate in the design, 
planning, and construction of facilities to reclaim and reuse water''. 
It is during the planning process that project sponsors work with 
Reclamation to secure a feasibility determination, as well as complete 
NEPA. The Bay Area projects in S. 1138 and H.R. 2442 have been working 
with Reclamation on project planning, and are seeking authorization to 
further solidify the partnership with Reclamation and complete the 
Title XVI requirements (i.e., including environmental compliance and 
financial capability) Federal funds will not be approved for the 
construction phase of the projects until feasibility determinations and 
environmental reviews are complete.
    Additionally, it is very strategic to move the authorization 
process in parallel with the feasibility determination project in order 
to realize project benefits quicker. For example, of the seven BARWC 
projects that were authorized in May, 2008 (P.L. 110-229), only three 
had received feasibility determinations prior to authorization. By not 
requiring feasibility determinations prior to authorization, all seven 
projects have successfully secured all approvals and moved to 
construction. In fact, three of those projects have now completed 
construction, two are under construction, and two will begin 
construction this year. Had all the projects been required to obtain 
feasibility before authorization, the projects would still be on the 
shelf instead of progressing to construction to provide the delivery of 
an estimated 8,700 acre-feet per year (AFY) and the associated benefits 
much needed in California. Because the previous projects had been 
authorized in a timely manner, several qualified as ``shovel ready'' 
and were therefore eligible to pursue and secure American Recovery and 
Reinvestment Act (ARRA) funding. Those projects are providing the jobs 
intended by the ARRA.
    Requiring that all projects in S. 1138 secure feasibility 
determinations prior to authorization will at a minimum stall the 
projects for two years or more. In some cases, such a delay could put 
at risk hard-fought financing that is now available but could be put at 
jeopardy by significant delays. Moving forward with the requested 
authorization would authorize nine new projects that could proceed to 
construction within the next two years, helping to support over 
9,750\1\ jobs, and producing 35,000 AFY of new water that will provide 
direct benefits to the Bay-Delta.
---------------------------------------------------------------------------
    \1\ Based on 2007 FHWA estimate that $1 billion in Federal funds 
supports 27,800 jobs, using total project costs of $352 million.
---------------------------------------------------------------------------
    HR 637: The City of San Juan Capistrano will be working with the 
Bureau of Reclamation to begin the feasibility study for the City's 
recycled water project. The study will provide an outline on the City's 
existing water supply that would be supplemented with recycled water 
for non potable use. In addition, the study will analyze the main 
project components, provide a detailed overview of the project purpose 
and need and examine all project alternatives. The feasibility study is 
expected to take no longer than a year to complete.
    Question 2. Please summarize the ongoing efforts in California to 
implement the legislation adopted in late 2009 to address water supply 
reliability and restore the Sacramento/San Joaquin/Bay-Delta ecosystem.
    For example, ACWA is co-sponsoring a series of forums on the 
legislation. Are other efforts ongoing to gain support for the 
initiatives?
    How will the state of California implement the goals described in 
your testimony to develop a comprehensive water management program, if 
the required $11.14 billion bond initiative is not approved by the 
voters this fall?
    Answer. The Legislature enacted a comprehensive water package in 
November 2009 aimed at improving the state's water supply reliability 
and restoring Sacramento San Joaquin River Delta ecosystem. The package 
included four policy bills and an $11.14 billion general obligation 
bond targeted for the November 2010 ballot. The legislative package 
makes it the policy of California to achieve the ``Coequal goals. . .of 
providing a more reliable water supply for California and protecting, 
restoring, and enhancing the Delta ecosystem.''
    To accomplish the coequal goals, the legislation calls for the 
implementation of an aggressive, comprehensive water management program 
that requires investment in three broad areas:

          1) New infrastructure, including improved conveyance in the 
        Sacramento-San Joaquin Delta and new surface and groundwater 
        storage;
          2) Habitat restoration and watershed improvements to help 
        restore natural functions in the ecological system; and
          3) Local water resource development projects, including water 
        recycling, brackish and sea water desalination, water use 
        efficiency and other projects to increase local water supply 
        resources and thereby reduce demands for imported water.

    Critical work is ahead in 2010 as the legislative package moves 
into the implementation phase. State agencies have initiated several 
implementation processes on a fast track toward decisions later in 
2010.
    ACWA is co-sponsoring a series of informational forums on the 
comprehensive water package. The forums are aimed at educating local 
elected officials, opinion leaders and the general public on key 
elements of the legislative package.
                           key 2010 processes
Delta Governance
    The package established a new governance structure for the Delta 
and a framework for achieving the co-equal goals of providing a more 
reliable water supply and restoring the Delta ecosystem.
    The governor and the Legislature have announced appointments to the 
Delta Stewardship Council, a major component of the new governance 
structure created to manage the Delta. The council is tasked with 
developing a Delta Plan to guide state and local actions in the Delta 
in a manner that furthers the co-equal goals. The first meeting of the 
council was held on April 1.
    On May 14, the Governor announced the administration's appointments 
to the California Water Commission, which will establish procedures to 
allocate funds to competitive storage projects, and to the Delta 
Conservancy, which will implement major environmental restoration 
projects in the Delta. Changes in the governance of the Delta 
Protection Commission, which has land use authority in the Delta and is 
responsible for the development of a Delta economic sustainability 
plan, were enacted earlier this year.
Groundwater Elevation Monitoring
    The legislative package requires local agencies to monitor and 
report on the elevation of groundwater basins to help better manage the 
resource during both normal water years and drought conditions.
    ACWA is working closely with member agencies and the Department of 
Water Resources to develop a strategy / action plan (using to the 
fullest extent possible existing local programs) for meeting the 
requirements of the legislation and to satisfy the needs of all 
parties.
Conservation
    The 2009 legislative package established a statewide water 
conservation program that requires a 20% reduction in urban per-capita 
water use by 2020. It also requires development of agricultural water 
management plans by Dec. 31, 2012.
    The legislation identifies multiple pathways for compliance with 
the urban conservation requirements, including an incentive-based 
Option 4 to be developed by the Department of Water Resources by Dec. 
31, 2010.
    ACWA is working with member agencies and the DWR to define the best 
way to develop and implement Option 4.
Statewide Flow Criteria
    The legislative package requires the State Water Resources Control 
Board (SWRCB) to develop new flow criteria for the Delta ecosystem to 
protect public trust resources. The California State Water Resources 
Control Board began a series of hearings on March 22 to develop the new 
flow criteria.
Informational Forums
    ACWA is co-sponsoring a series of informational forums on the 
comprehensive water package. The forums are aimed at educating local 
elected officials, opinion leaders and the general public on key 
elements of the legislative package. Presenters include water experts, 
state and local leaders and others involved in developing and 
implementing the package. Forum hosts include the California Latino 
Water Coalition, ACWA and the State of California. Local sponsors also 
are providing support.
The Water Bond Campaign
    As public agencies, ACWA's members cannot directly engage in the 
campaign to pass the water bond. Campaign organizations are being 
developed for both the passage and defeat of the water bond. For more 
information on these efforts, contact Water for California, which has 
been organized to pass the bond.
State Strategies if Bond Fails
    The policy bills passed by the legislature in November are now in 
effect and will remain so regardless of a decision on the water bond by 
voters in November 2010. Consequently, if the bond should fail, the 
statutory commitment remains for a comprehensive water policy of 
coequal goals, local resource development, infrastructure investments, 
and habitat enhancement. The bond would appropriately provide public 
funding for perhaps one-quarter of the total investment of the package 
with the remainder coming predominantly from water users through their 
water agencies. While ACWA believes that the prospects for passage of 
the water bond are good, if the bond fails it will be necessary to 
develop alternative means of providing the public cost share for 
implementation of the package.
             Responses to Questions From Senator Brownback
    Question 1. In addition to $5 million for a specific reach of the 
Regional Brine Line, how much ARRA funding has California received to 
help finance Title XVI projects?
    Answer. Including the $5 million dollars for the Regional Brineline 
for the Calleguas Municipal Water District, the state of California was 
appropriated approximately $132 million in ARRA funding for Title XVI 
projects.\2\
---------------------------------------------------------------------------
    \2\ ``Bureau of Reclamation--Title XVI Projects''. Department of 
Interior, January 13, 2010. <http://recovery.doi.gov/press/bureaus/
bureau-of-reclamation/title-xvi-projects/>.
---------------------------------------------------------------------------
    Within the past year, the Bay Area Recycle Water Coalition has 
secured approximately $35 million in Title XVI funds through fiscal 
year and ARRA appropriations (only authorized projects were eligible 
for Title XVI ARRA funding). That funding has allowed seven new 
projects to move into construction (i.e. three projects have now 
completed construction, two are in construction and two more are 
scheduled to begin construction this year). Those projects will produce 
over 8,000 acre-feet per year (AFY) of new water that will provide 
direct water supply relief benefits to the Bay-Delta. The Bay Area is 
proposing to build on that success and authorize nine new projects that 
have the potential to add an additional 35,000 AFY of new water, which 
is the equivalent of the water supply needed for 105,000 homes. If the 
Title XVI funds are not available to move the program forward, the 
local match money will likely be shifted to other priorities. If 
authorized now, the nine new projects could proceed to construction 
within the next two years, supporting over 9,750 jobs, and producing 
35,000 AFY of new water that will provide direct benefits to the Bay-
Delta.
    Question 2. Regarding S. 1138, why has the Bureau of Reclamation 
only certified the feasibility of one of the six proposed projects? 
Have you been given any indication of when the additional feasibility 
studies will be complete?
    Answer. The 14 agency Bay Area Recycled Water Coalition projects 
have a solid track record of complying with all statutory requirements 
for Title XVI projects. The Coalition meets monthly with Reclamation 
staff at the Mid-Pacific Region to discuss project needs and review 
status. Each agency pursues reimbursable agreements with Reclamation to 
further engage staff for guidance on feasibility study development and 
in-depth environmental review. To date, seven projects authorized in 
2008, and two of the nine Bay Area projects seeking authorization have 
secured feasibility determinations and the remaining feasibility 
determinations are in process and will be completed prior to the 
construction phase. It is incumbent on each agency to respond quickly 
to Reclamation requests to help avoid delays and potential loss of 
momentum. The regular monthly meetings with Reclamation staff have 
helped to minimize delays.
    A feasibility determination is not required prior to project 
authorization. Congressional authorizations for Title XVI projects give 
Reclamation the official authority ``to participate in the design, 
planning, and construction of facilities to reclaim and reuse water''. 
It is during the planning process that project sponsors work with 
Reclamation to secure a feasibility determination, as well as complete 
NEPA. The Bay Area projects in S. 1138 and H.R. 2442 have been working 
with Reclamation on project planning, and are seeking authorization to 
further solidify the partnership with Reclamation and complete the 
Title XVI requirements (i.e., including environmental compliance and 
financial capability) Federal funds will not be approved for the 
construction phase of the projects until feasibility determinations and 
environmental reviews are complete.
    Additionally, it is very strategic to move the authorization 
process in parallel with the feasibility determination project in order 
to realize project benefits quicker. For example, of the seven BARWC 
projects that were authorized in May, 2008 (P.L. 110-229), only three 
had received feasibility determinations prior to authorization. By not 
requiring feasibility determinations prior to authorization, all seven 
projects have successfully secured all approvals and moved to 
construction. In fact, three of those projects have now completed 
construction, two are under construction, and two will begin 
construction this year. Had all the projects been required to obtain 
feasibility before authorization, the projects would still be on the 
shelf instead of progressing to construction to provide the delivery of 
an estimated 8,700 acre-feet per year (AFY) and the associated benefits 
much needed in California. Because the previous projects had been 
authorized in a timely manner, several qualified as ``shovel ready'' 
and were therefore eligible to pursue and secure American Recovery and 
Reinvestment Act (ARRA) funding. Those projects are providing the jobs 
intended by the ARRA.
    Requiring that all projects in S. 1138 secure feasibility 
determinations prior to authorization will at a minimum stall the 
projects for two years or more. In some cases, such a delay could put 
at risk hard-fought financing that is now available but could be put at 
jeopardy by significant delays. Moving forward with the requested 
authorization would authorize nine new projects that could proceed to 
construction within the next two years, helping to support over 
9,750\3\ jobs, and producing 35,000 AFY of new water that will provide 
direct benefits to the Bay-Delta.
---------------------------------------------------------------------------
    \3\ Based on 2007 FHWA estimate that $1 billion in Federal funds 
supports 27,800 jobs, using total project costs of $352 million.
---------------------------------------------------------------------------
    Question 3. In addition to authorizing the Secretary of the 
Interior to participate in these water recycling projects, S. 1138 
would increase the federal funding authorization for two previously 
authorized projects in your state. What are the reasons for the 
increase in funding, and why should these projects receive additional 
funding above the 25% federal contribution limit set forth in the 
Reclamation Wastewater Act.
    Answer. These two projects within S. 1138 that are requesting an 
increase in authorization are not seeking funding above the 25% federal 
contribution limit. Rather, the initial cost estimates for the entire 
projects have changed since the authorization, and the projects are 
seeking an increase to cover 25% of the revised project cost. The 25% 
Federal share reimbursement is still the limit and would not be 
exceeded for these or any BARWC projects.
    In Public law 110-229, $8.25M is authorized for the South Bay 
Advanced Treatment Project. This was based on a 6 million-gallon per 
day (MGD) microfiltration and reverse osmosis advanced treatment 
facility, with UV disinfection. The projected cost for this facility 
was $33M, and the 25% Federal share for such a facility was $8.25M. 
This project is being developed in cooperation with the City of San 
Jose. Since 2008, as the design was being finalized, both project 
proponents concurred that they would secure greater benefits should the 
facility be upsized, and built as a 10 MGD microfiltration facility 
with 8 MGD reverse osmosis and with 10 MGD ultra-violet disinfection. 
This is the project, now ready to be built in late Summer, and 
estimated at $53M. Seeking a Federal share of 25% of this $53M would be 
$13.25M. With the previous authorization of $8.25M, now an additional 
$5M is sought to help bridge the local funds and make this project a 
reality. Both project proponents recently executed a 40-year agreement 
to expand recycled water. This advanced recycled water treatment 
facility is a critical piece in their recycled water expansion 
strategies.
    The Antioch Recycled Water Project, authorized in Public law 110-
229, began the planning process in 2005, completing a facilities plan 
in 2007 and obtaining Feasibility Determination from Reclamation on 
December 28, 2007. The authorization amount requested at that time 
reflected the estimated costs based on the approved facilities plan. 
This plan identified the direct reuse of an existing pipeline, which in 
a subsequent design phase was determined to need restoration and 
relining since the existing line turned out to be in worse condition 
than was originally assumed. This along with a few other minor design 
changes caused an increase in costs and the need to seek a higher 
authorization amount to recover the 25% Federal share for project 
planning, design and construction from $2,250,000 to $3,125,000.
    Question 4. In lieu of authorizing a larger federal share, 
approximately, how much of a dollar increase in water rates for 
Californians would it take to pay for the projects authorized under the 
legislation being considered today?
    Answer. The requested increase in authorization for the two Bay 
Area projects is not a request to increase the federal share higher 
than the 25% allowed for in the Title XVI program (see answer to 
question 3). The cost to convert an existing potable water supply to a 
sustainable recycled water supply can cost as much as three to four 
times the existing water rates paid by local residential and commercial 
water users (e.g. $500 per acre-foot to $1500 per acre-foot). The 25% 
Federal funding assistance planned and pursued by these projects is 
critical for them to move forward.
    For example, the Antioch Recycled Water Distribution Project has 
half of the capital costs of the project funded through Federal and 
State grants, and the other half is financed through a loan to be 
repaid by the City of Antioch. Without the financial assistance, it 
would take 44 years for the recycled water costs to break even with 
current potable water costs; with this assistance, the breakeven point 
is realized within one year.
    In these difficult economic times, the City of Antioch is not 
unique as many public agencies continue to be challenged with 
decreasing revenue and increasing expenditures. Without the Federal 
partnership, the City simply could not afford the cost to convert its 
water supply to recycled water. Thus, this modest Federal investment 
plays a significant role in promoting recycled water development and 
will provide benefits for years to come. Once the system is changed 
from a fresh water system (in this case supplied directly from the Bay-
Delta) to a recycled water system and the capital is paid off, it is 
very unlikely that the water supply will ever change back to a fresh 
water system; i.e. it becomes a sustainable fresh water alternative.
    Question 5. How much of an increase in water rates will California 
implement to help pay for these projects?
    Answer. Water rates in California will increase dramatically over 
time because of many factors, including increasing environmental 
regulations, climate change and additional requirements to produce 
cleaner water for human consumption. One strategy that California is 
taking to address its water supply needs is to invest in recycled water 
development. By treating and reusing water that has already been 
diverted from a waterway and used once, less fresh water will need to 
be diverted from the Bay-Delta and Colorado River systems. However, the 
cost to convert an existing potable water supply to a sustainable 
recycled water supply can cost as much as three to four times the 
existing water rates paid by local residential and commercial water 
users (e.g. $500 per acre-foot to $1500 per acre-foot). The 25% Federal 
funding assistance planned and pursued by these projects through the 
Title XVI program is critical for them to move forward. The remaining 
75% funding comes either from some combination of local and state 
funding sources. By securing the federal and state partnerships, local 
project sponsors are able to reduce the cost increases to construct a 
recycled water facility to its customers from a doubling of rates to a 
more modest increase of 10-25% increase. The bottom line is that 
developing recycle water facilities provides benefits at the local 
state and federal levels. When the investment costs can be shared 
amongst the beneficiaries, projects will move forward. Without that 
partnership, projects have historically stalled.
    Question 6. Please describe what quality of water these recycling 
projects develop. For what purposes is this water used?
    Answer. In California, recycled water must meet Department of 
Health Services standards in Title 22, which specifies quality and 
suitable uses including irrigation, cooling water, and other industrial 
and commercial purposes. BARWC projects benefit California and the 
Federal Government through the preservation of State and Federal 
reservoir supplies for higher uses. Every gallon of recycled water that 
goes towards these uses is a gallon of water that doesn't need to be 
withdrawn from the Bay-Delta.
    These projects provide regional and local benefits which include 
preservation of declining water supplies from the Sierra and Delta for 
higher uses; drought-proof assistance for the region; a sustainable and 
reliable source of water as climate change occurs; environmental 
enhancement opportunities; and reduction in wastewater discharges to 
the sensitive Bay-Delta environment.
                                 ______
                                 
      Responses of Kira Finkler to Questions From Senator Stabenow
    Question 1. The U.S. Bureau of Reclamation in March 2010 issued 
draft criteria to be used in allocating funding to authorized Title XVI 
projects. Several of the criteria are identical or similar to criteria 
included in ``Guidelines for Preparing, Reviewing, and Processing Water 
Reclamation and Reuse Project Proposals under Title XVI of Public Law 
102-575, as Amended'' (Guidelines).

  <bullet> How will implementation of the proposed funding criteria 
        differ from evaluation under the earlier ``Guidelines'' 
        document?

    Answer. The Guidelines for Preparing, Reviewing, and Processing 
Water Reclamation and Reuse Project Proposals under Title XVI of Public 
Law 102-575 (Guidelines) is a Reclamation handbook created in 1998. The 
Guidelines were meant to aid project sponsors and Reclamation staff in 
evaluating the completeness of a Title XVI project feasibility study, 
which is a pre-requisite for any Federal funding for project 
construction. In 2007, new Reclamation Manual Directives & Standards 
(WTR 11-01, Title XVI Water Reclamation and Reuse Program Feasibility 
Study Review Process) were developed to describe in detail the 
requirements for a Title XVI feasibility study.
    The draft criteria published in March 2010, on the other hand, are 
a set of ranking criteria intended for use in making funding allocation 
decisions among eligible projects in Fiscal Year 2011 and beyond. Each 
project seeking Federal funding will be assessed against criteria so 
that projects can be ranked for funding. While the draft criteria award 
points in some categories included in the Guidelines document, the 
draft criteria also address areas such as the water-energy nexus and 
use of renewable energy as well as the extent to which a project 
employs a watershed perspective.
    Question 2. The draft funding criteria are described as ``part of 
Reclamation's effort to prioritize projects for funding.''

  <bullet> What are the priorities or objectives that the 
        Administration is trying to achieve through implementation of 
        the Title XVI program?

    Answer. The Department implements the Title XVI Program with the 
objective to promote sustainable water management and water 
conservation in the 17 Western states. The Title XVI Program is part of 
the Department's efforts through WaterSMART to secure and stretch water 
supplies for use by existing and future generations.

  <bullet> What are the metrics of success for the Title XVI program? 
        How do the metrics for the draft funding criteria compare to 
        these metrics?

    Answer. The Department is developing a set of internal measures and 
milestones to monitor and track achievement of High Priority 
Performance Goals such as Water Conservation, of which Title XVI is a 
critical part. Progress in these areas will be reported and reviewed 
throughout the year by the Deputy Secretary's Operations Planning Group 
to identify and address any need for enhanced coordination or policy 
measures to address barriers to achievement of the Water Conservation 
High Priority Performance Goal. The draft criteria are intended to 
identify projects that most effectively contribute to that goal and 
other program objectives.

  <bullet> Once each project has received a score, how will Reclamation 
        distribute available funds across the projects? Will it rank 
        funding for all projects based on scores and allocate funds 
        based on the rankings, or will a limited number of the top 
        ranking projects be identified for funding, or will some other 
        process be used?

    Answer. The answer to this question will depend on the number of 
applicants, and final appropriations available for Title XVI projects. 
Stakeholder comments on the ranking criteria, received through April 
16, 2010, are still being incorporated. Once criteria have been 
finalized, Reclamation will develop a funding opportunity announcement 
for FY 2011 that will inform applicants of details such as project 
funding limitations and will also provide an overview of the review and 
selection process.
    Question 3. Criterion 2b of the draft funding criteria awards 
``points'' to a project or phase that is ``ready to proceed.''

  <bullet> Why is criterion 2b not an eligibility requirement?

    Answer. Criterion 2b is intended to assess an applicant's progress 
in meeting pre-requisites without excluding applicants that have not 
yet met all requirements at the time of application. For example, final 
environmental compliance typically involves work between the project 
sponsor and Reclamation once Federal funding has been identified. The 
criterion will assess the applicant's progress toward environmental 
compliance and other requirements. In addition, both construction and 
pre-construction activities (such as feasibility study development, 
financial capability preparation, and environmental compliance) will be 
eligible to receive funds under the draft criteria

  <bullet> Could a project or phase receive funding if it meets other 
        points requirements but is not ``ready to proceed?''

    Answer. Yes, such a project would require high scores on other 
draft criteria sections. Readiness to proceed is one of seven different 
scoring sections in the draft criteria, and represents 30 out of 175 
points, or 17 percent of the total draft scoring pool.
    Question 4. Criterion 1 e notes that performance measures ``will be 
considered'' but does not provide additional information on what is 
expected or required under this subsection.

  <bullet> Please elaborate on how points associated with ``performance 
        measures'' under criterion 1 e will be awarded. For instance, 
        will measurable performance goals receive additional points? 
        Will performance measures be compared across projects?

    Answer. The funding opportunity announcement for FY 2011 funding 
will provide details for applicants, including suggested performance 
measures that each project sponsor can use to assess results once the 
project phase has been completed. The intent of this criterion is to 
assess the applicant's plans for measuring such benefits as water 
yield; energy efficiency; use of renewable energy; water quality 
improvement; habitat created; progress toward meeting minimum flow 
requirements in rivers or streams; service to rural or economically 
disadvantaged communities; progress toward meeting Indian water rights; 
river restoration or court orders binding upon the project sponsor or 
the Department, or other considerations.
    Question 5. Criterion 4a asks about quantified expected benefits 
for renewable energy components, but does not ask for a comparison of 
these benefits with the expected costs to incorporate a renewable 
component.

  <bullet> Why are costs not considered under this criterion?

    Answer. Reclamation is considering revisions to these draft 
criteria based on comments received and will consider assessing the 
costs associated with renewable energy as well as the energy efficiency 
of each project.

  <bullet> Has the Administration considered using a metric for 
        comparing the energy-environment footprint of the projects 
        (e.g., fossil fuel energy use per unit of reused water)?

    Answer. The emphasis in the draft criteria on renewable energy 
seeks to incentivize a reduction in the energy-environment footprint of 
Title XVI projects. However, the Department is not equipped to analyze 
the relative energy use per unit of reused water across all Title XVI 
projects. Among the complicating factors for this analysis would be the 
widely variable sources of the waste streams that are used by Title XVI 
projects, and the variety of energy sources that are used by the local 
municipalities who operate water recycling facilities.
    Question 6. The economics criteria under 5b is cost per acre-foot 
of water created or Annualized Life Cycle Cost per average annual 
volume of water created. However, the costs of the full suite of water 
conservation and supply augmentation alternatives is location specific. 
In other words, reused water at $300 per acre-foot may or may not be 
the least cost alternative available in a specific location.

  <bullet> Who is expected to complete the economic analysis described 
        in the draft funding criteria, Reclamation or the project 
        sponsor?

    Answer. Once criteria have been finalized, the funding opportunity 
announcement for FY 2011 funding will explain in detail the information 
necessary from each project sponsor. Each project sponsor will be asked 
to describe project benefits, with review of the data and analysis by 
Reclamation.

  <bullet> Has Reclamation already collected data on the per acre-foot 
        cost or Annualized Life Cycle Cost($) per average annual volume 
        of water that will be created for completed or already 
        authorized Title XVI projects? If so, please provide the 
        Committee with information on the range of Title XVI water 
        costs per acre-foot or the Annualized Life Cycle Cost per 
        average annual volume of water created.

    Answer. Reclamation compiles estimates of the number of acre-foot 
of water made available by each project using information provided by 
the project sponsors who own and operate the actual facilities, along 
with total Federal funding provided for each project to date. 
Reclamation's most current compilation of this information is attached. 
Note that many projects, including those funded under the American 
Recovery and Reinvestment Act, have received Federal funding for 
construction that is currently underway and that will lead to 
additional acre-feet of water once complete.

  <bullet> How does this economic evaluation differ from, improve upon, 
        or duplicate requirements for an economic analysis contained in 
        the D&S?

    Answer. Reclamation Directives and Standards (WTR 11-01) require an 
analysis of the proposed project relative to other water supply 
alternatives as part of a complete feasibility report and describe in 
detail the information required from each project sponsor. Required 
information includes the conditions that exist in the area; 
contributions that the plan could make toward alleviation of economic 
problems and the meeting of future demand; and a cost comparison of 
alternatives that would satisfy the same demand as the proposed Title 
XVI project. The economic evaluation as part of draft funding criteria 
is intended to provide a basis for comparison among projects seeking 
funding. Reclamation is considering revisions to these draft criteria 
based on comments received and will consider including the cost of 
water supply alternatives (i.e., the location specific conditions 
referenced above) as part of the assessment.
     Responses of Kira Finkler to Questions From Senator Brownback
    Question 1. What are the average current water rates per capita for 
residents of California? How do these rates compare to average water 
rates for Kansans?
    Answer. Reclamation does not track this information for any states. 
However, we are aware that water rates per capita vary considerably 
within most Western states due to a variety of factors.
    Question 2. In lieu of authorizing a larger federal share, 
approximately, how much of a dollar increase in water rates for 
Californians would it take to pay for the projects authorized under the 
legislation being considered today?
    Answer. The total amount of additional Federal funding that would 
be authorized by the three California-specific Title XVI bills under 
consideration by the Subcommittee at this hearing is $101.6 million. 
Reclamation does not collect the information necessary to track all of 
the financing options available to Title XVI project sponsors, which 
likely vary from project to project and would have to be considered in 
determining any rate increase. Moreover, given the variables related to 
any rate increase in individual districts or systems, Reclamation does 
not have the information that would be needed to make this calculation.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Londres Uso, Mayor, City of San Juan Capistrano, on H.R. 
                                  637
    Madame Chairman and members of the subcommittee, The City of San 
Juan Capistrano appreciates this opportunity to present testimony on 
the California water bill that is part of today's agenda and comment on 
its important role in helping South Orange County, California address 
its ongoing water crisis, the worst in our state's history. My name is 
Dr. Londres Uso and I am the Mayor of San Juan Capistrano, CA, a city 
of 37,000 residents, nestled in a dense residential region of southern 
California.
    San Juan Capistrano readily supports H.R.637, the South Orange 
County Recycled Water Enhancement Act, which supports the Moulton 
Niguel and Santa Margarita Water Districts in their collaborative 
effort to improve water recycling, water storage, and water treatment 
in South Orange County. Their plans include constructing water 
facilities and 25,000 line feet of pipes to store and deliver recycled 
water throughout San Juan Capistrano and San Clemente. These projects 
will help reduce the amount of reusable water that is discharged to the 
ocean, create new sources of water and relieve the heavy water demand 
that this region places on the California Aqueduct and Colorado River 
Basin. The new water supply for the City of San Juan Capistrano will be 
1,500 acre-feet of recycled water annually--an average 16% of San Juan 
Capistrano's total annual water demand.
    Madame Chairman and members of the subcommittee, on behalf of the 
City of San Juan Capistrano, I want to commend you for convening this 
hearing at such a critical period in California's water supply history. 
Recent drought conditions and increased regulations under the 
Endangered Species Act have made water supply the main topic in most 
California cities, especially in the area of south Orange County. With 
its increasing population and increasing water consumption, south 
Orange County needs water management systems that will help it provide 
and transport new sources of water. This bill authorizes federal 
funding of up to 25% of the costs of these water management projects to 
help this region meet its water needs.
                               conclusion
    Madame Chairman and members of the subcommittee, thank you again 
for the opportunity to present testimony today. In summary: The City of 
San Juan Capistrano is pleased to support the California bill H. R. 
637, which is before you today, in order to improve water recycling, 
water storage, and water treatment in South Orange County. This 
completes my statement.
                                 ______
                                 
 Statement of Donald R. Kendall, General Manager, Calleguas Municipal 
                      Water District, on H.R. 2522
    Madam Chairwoman and Members of the Subcommittee, thank you for the 
opportunity to submit testimony on H.R. 2522, which would raise the 
ceiling on the Federal share of the cost of the Calleguas Municipal 
Water District Recycling Project.
    My name is Donald Kendall and I am the General Manager for 
Calleguas Municipal Water District, which provides water to about 75 
percent of the population of Ventura County, or 650,000 people, about 
50 miles northwest of Los Angeles, California.
    Calleguas Municipal Water District (Calleguas) is a public agency 
created in 1953 to provide southeastern Ventura County with a reliable 
supply of high quality supplemental water. The District serves an area 
of approximately 350 square miles that includes the cities of 
Camarillo, Moorpark, Oxnard, Port Hueneme, Thousand Oaks, and Simi 
Valley, as well as surrounding unincorporated areas. Calleguas' service 
area faces serious water supply and water quality challenges.
    Calleguas' imported water supply is dwindling. Calleguas imports 
about 120,000 acre-feet per year (AFY) from the State Water Project 
(SWP), a system of reservoirs, aqueducts, and pumping facilities that 
conveys water from the Sacramento-San Joaquin Bay-Delta in northern 
California to southern California. The ability of the SWP to convey 
reliable water supplies has been hampered by an on-going drought and 
regulatory decisions which have mandated that significantly more water 
remain in the Bay-Delta for habitat needs. Climate change is expected 
to further reduce available supplies as precipitation decreases and 
less water is stored in snowpack. Calleguas needs to develop additional 
water supplies if it is to reliably sustain its existing residents, 
businesses, and agriculture. Water conservation alone cannot provide 
sufficient savings to avert potential future water supply shortages.
    The quality of the region's local water supplies is deteriorating. 
Calleguas' service area generally overlies the Calleguas Creek 
Watershed. Calleguas Creek and many of its tributaries are listed as 
``impaired'' for salinity under the Clean Water Act. The Calleguas 
service area has experienced increasing salinity levels since its water 
supplies were first put to use by farmers in the 1880s. Contributing 
factors include naturally occurring minerals, agricultural runoff, and 
lack of surplus water to flush salts from the environment. Salinity 
levels have increased with each cycle of urban use for municipal and 
industrial purposes. Groundwater over-draft along the coastline has led 
to seawater intrusion into coastal groundwater basins, impairing the 
quality of freshwater aquifers. Much of the local groundwater is too 
saline for use as drinking water and is harmful to the County's billion 
dollar a year agricultural industry, primarily for sensitive crops like 
berries and avocados. High salinity levels in soils and surface water 
can also be detrimental to sensitive habitat. Without a means of 
removing salt, the area will continue to experience long-term increases 
in salinity levels as the salts are cycled and concentrated.
    Solutions to these supply and quality problems are being 
implemented through a collaborative process. Beginning in 1996, a broad 
coalition of local property owners, water and wastewater agencies, 
environmental groups, agricultural parties, governmental entities, and 
other private interests joined together to develop the Calleguas Creek 
Watershed Management Plan, which is centered around implementation of 
the Calleguas Municipal Water District Recycling Project (Project).
    The Project will improve water supply reliability and reduce 
dependence on imported water supplies by making it possible to put 
local brackish water supplies to beneficial use. The only way to remove 
salinity from water is through a membrane treatment process, such as 
reverse osmosis, which produces a highly saline waste concentrate which 
must then be managed and disposed. If the concentrate were to be 
discharged to wastewater or creeks, it would perpetuate the cycle of 
salt build up.
    The Project is a regional pipeline that will collect salty water 
generated by groundwater desalting facilities and excess recycled water 
and convey that water for reuse elsewhere. Any surplus supplies will be 
safely discharged to the ocean, where natural salt levels are much 
higher. The Project is being built incrementally in phases, as shown on 
the attached map.* Phase 1 is largely complete, with one pipeline 
section and an ocean outfall currently under construction. Once 
complete, the cost for Phase 1 will cause Calleguas to reach the $20 
million cap in their federal authorization.
---------------------------------------------------------------------------
    * Map has been retained in subcommittee files.
---------------------------------------------------------------------------
    Much of the local wastewater is treated to a high level of 
bacteriological quality but is too saline for discharge to local 
creeks. The Project will either provide a means for that wastewater to 
be demineralized for use as a high quality irrigation supply or a means 
of conveying that wastewater to potential users near the coast which 
can tolerate saline water. Potential uses include wetlands restoration, 
irrigation of salt-tolerant crops (such as sod), and coastal game 
preserves.
    The use of this non-potable water source will help reduce 
groundwater pumping and imported water use. The Project will also 
export salts out of the watershed to help achieve compliance with 
regulatory requirements for salts in local groundwater and surface 
water resources. Additionally, the Project will facilitate the 
development of new, local water supplies through treatment of brackish 
groundwater.
    The Project is vital to the region's water reliability as imported 
supplies become increasingly vulnerable to drought, climate change, 
catastrophic levee failures from flood and/or seismic events, and 
regulatory shutdowns of pumping facilities for habitat protection.
    The Project will improve surface water and ground water quality by 
moving salts out of the watershed. Salt will be removed from 
groundwater and the concentrate from the treatment process sent to the 
Project. Tertiary treated wastewater which is too saline for discharge 
to local streams will be sent to the Project during wet periods when it 
is not needed for irrigation. Ventura County has abundant sources of 
groundwater, but much of the water is too high in salts for municipal 
and agricultural use. By treating groundwater to remove salts and 
moving those salts away from surface waters and groundwater, water 
agencies in Ventura County solve a water quality problem, while 
improving local water supply reliability.
    In addition to its water supply and water quality benefits, the 
Project will also benefit the environment by improving the quality of 
flows in local creeks, reducing greenhouse gas emissions by using less 
energy-intensive local water resources instead of imported sources 
which require substantial pumping, and reducing dependence on imported 
water from the sensitive Bay-Delta ecosystem in Northern California.
    Phase 1 of the project was authorized by P.L. 104-266, Section 2, 
and will be completed at an estimated cost of $83.576 million (maximum 
Federal share of $20 million). Phase 1 includes 48 inch diameter pipe 
extending nine miles through the cities of Oxnard and Port Hueneme and 
unincorporated areas of Ventura County, and also includes a 30 inch 
diameter ocean outfall extending 4,500 feet into the ocean. Phase 1 
will facilitate the reclamation and reuse of about 15,000 acre-feet per 
year of water.
    H.R. 2522 will authorize Bureau of Reclamation support for Phases 2 
and 3 of the Project, which will extend the 18-inch through 30-inch 
diameter pipe an additional twenty-six miles through the cities of Simi 
Valley, Moorpark, and Camarillo, and unincorporated areas of Ventura 
County. Completion of Phases 2 and 3 of the Project will facilitate the 
reclamation and reuse of about 43,000 acre-feet per year of water. 
Federal support for these phases of the project through the Bureau 
would be limited to the lesser of $40 million or 25 percent of the 
construction costs.
    The Project is the only truly reliable, environmentally-sensitive, 
and cost-effective solution to the water supply and water quality 
issues in the Calleguas service area. Implementation of the Project 
will facilitate recycled water use, reduce the demand on imported 
water, remove existing salts, reduce salinity loadings, facilitate 
restoration of coastal wetlands, help sustain important agricultural 
operations in Ventura County, and provide overall benefits to Ventura 
County and the State of California.
    Calleguas Municipal Water District takes its role as water supply 
manager for the County very seriously. Calleguas, local cities and 
retail water agencies, and the local community, are all looking for 
water supply and water supply reliability solutions. Local brackish 
groundwater and recycled municipal wastewater are good solutions. HR 
2522 can be the tool that enables us to achieve this water supply and 
we very strongly urge your support for this legislation.
    Thank you again, Madam Chairwoman and Members of the Subcommittee 
for your consideration of H.R. 2522.
                                 ______
                                 
Statement of Gary W. Darling, General Manager, Delta Diablo Sanitation 
    District, Antioch, CA, on behalf of the Bay Area Recycled Water 
                         Coalition, on S. 1138
    Madam Chairwoman and Members of the Subcommittee, I appreciate the 
opportunity to provide this statement for the record on behalf of the 
Bay Area Recycled Water Coalition (BARWC), a partnership of fourteen 
San Francisco Bay Area regional water recycling agencies, in strong 
support of S. 1138, the ``Bay Area Regional Water Recycling Program 
Expansion Act of 2009.'' BARWC is committed to pursuing highly 
leveraged, locally-managed projects that will help ensure the security 
of water supplies in the Bay-Delta for years to come.
    The Coalition respectfully seeks the Subcommittee's support for S. 
1138, which builds on the success of the last Congress, enabling us to 
build six new projects and to fully fund two more. These six new 
projects will produce over 8,000 acre-feet per year (AFY) of 
sustainable water supply. They will reduce wastewater discharges to 
aquatic environments, and reduce the demand for limited fresh water 
from our fragile Bay-Delta system.
    Additionally, we are requesting that the bill be amended to include 
three new BARWC projects, which will yield an additional 27,000 AFY. 
With funding assistance, these projects can approach construction 
within 24 months. When added to the current projects in S. 1138, the 
near-term yield is over 35,000 AFY of water, which is enough water to 
meet the needs of approximately 105,000 homes. We also request that the 
bill be amended to include the same language inserted in H.R.2442, the 
House companion bill, at the request of the Congressional Budget 
Office, to clarify that funding in the bill is subject to 
appropriations.
    New projects included in the Bay Area Regional Water Recycling 
Program Expansion Act of 2009 include the Central Contra Costa Sanitary 
District-Concord Recycled Water Project; the Central Dublin Recycled 
Water Distribution and Retrofit Project; the Petaluma Recycled Water 
Project; the Central Redwood City Recycled Water Project; the Palo Alto 
Recycled Water Pipeline Project; and the Ironhouse Sanitary District 
Recycled Water Project. The three new projects seeking to be included 
in this bill by amendment include the Hayward Recycled Water Project, 
Mid-Coastside Region Water Recycling Project, and the Bay Area Water 
Supply Replacement and Reliability Project. Constructing these projects 
will enable more cities across the Bay Area to install new advanced 
water treatment facilities, pump stations, piping, treatment and 
storage tanks. This will directly result in reduced demand from Bay 
Area communities on scarce fresh water from the Bay-Delta.
    Pursuing a Title XVI Federal-Local partnership is a significant 
investment of time and money for the local project sponsor. The sponsor 
has committed to securing a 75% non-federal share, and completing Title 
XVI requirements which include feasibility determination, NEPA 
compliance, and financial capability. Additionally, these projects must 
still obtain congressional authorization and appropriation for the 
Federal 25% share. These requirements ensure that there is little risk 
for the Federal Government, and significant return on their investment. 
The nine new BARWC projects mentioned above are invested in this 
process. Two have currently secured their feasibility determinations 
from Reclamation, two have submitted information and five are 
generating the information.
    Reclamation allows a six month review period of a feasibility study 
prior to making a determination. The project sponsor spends several 
months or more before this submittal developing and gathering the study 
materials, and additional time to address Reclamation review comments. 
Therefore, the timeline for a project to complete feasibility seems to 
be taking a minimum of a year. Obtaining authorization has typically 
been a two-year process. These processes should run in parallel, not 
series, so that ready-to-go water projects are not unnecessarily 
delayed an additional two to three years.
    Madam Chairwoman, in the hearing, Deputy Director Finkler stated 
that Reclamation could not support S. 1138 because it had not certified 
any of the six new projects in the bill as having completed feasibility 
studies. This statement is inaccurate and also appears to demonstrate 
what seems to be a classic catch-22 wherein Reclamation will not 
support projects that are not authorized, and at the same time they 
will not support new authorizations. We want to set the record straight 
on the issue of feasibility determination and authorization. Title XVI 
does not require a project to obtain feasibility certification prior to 
obtaining authorization. Rather, a project must be authorized, secure a 
feasibility determination, complete NEPA compliance, and satisfy 
financial capability before it can receive appropriations for 
construction. Congressional authorizations for Title XVI projects give 
Reclamation the official authority ``to participate in the design, 
planning, and construction of facilities to reclaim and reuse water''. 
It is during the planning process that project sponsors work with 
Reclamation to secure a feasibility determination, as well as complete 
NEPA. Once that is complete, then the project sponsor and Reclamation 
have the ability to pursue appropriations that can fund up to 25% of a 
project cost with a cap per project of $20M.
    Requiring feasibility determinations to be complete prior to 
securing a congressional authorization was not required for past 
authorizations of Bay Area recycled water projects. For example, of the 
seven BARWC projects that were authorized in May, 2008 (P.L. 110-229), 
three had received feasibility determinations and four had not. Three 
of those projects have now completed construction, two are under 
construction, and two will begin construction this year. Had they been 
required to obtain feasibility before authorization, the three newest 
projects would still be on the shelf instead of progressing to 
construction this year to provide the delivery of an estimated 8,700 
AFY and the associated benefits much needed in California. The 
``feasibility'' argument Deputy Director Finkler put forth in the 
hearing has never been made before. Had that position prevailed in the 
past, most of the Title XVI bills that have become law would never have 
been enacted.
    California has serious water supply challenges. Increasing 
population and agricultural demand, coupled with decreasing 
precipitation and Sierra snowpack, make it imperative that we actively 
seek conservation and water recycling programs to withstand the effects 
of climate change and drought. Currently two-thirds of the San 
Francisco Bay Area's water supply is imported. As our State's need for 
water continues to grow, so too does our responsibility to secure long-
term sustainable water options. Water recycling and reuse enables us to 
address these challenges.
    Federal support enables us to stretch limited water supplies and 
protect precious ecosystems to the benefit of citizens in a far broader 
geography than simply the communities our agencies serve. Our 
Coalition's objective of working together in collaboration, rather than 
pursuing individual agency interests, is successfully producing water 
reuse projects focused on creating long-term sustainability and 
drought-tolerant water supplies. Projects have been undertaken by 
Coalition members resulting in over 22,000 acre feet of recycled water 
being supplied to Bay Area communities. There are many more 
opportunities for us to be active leaders in addressing the growing 
issues of water conservation and reuse; but we can't do it alone.
    Federal funding and support is the strongest foundation we have to 
guarantee the successful adoption and implementation of water reuse 
technologies and practices, and is critical to moving these projects 
forward. For example, the Antioch Recycled Water Distribution Project 
(authorized in P.L. 110-229) is currently halfway through construction 
and will supply the City of Antioch with almost 500 acre-feet of 
recycled water replacing water presently supplied from the Central 
Valley Project diverted from the Delta. Half of the capital costs of 
the project are funded through Federal and State grants, and the other 
half is financed through a loan. Without the financial assistance, it 
would take 44 years for the recycled water costs to break even with 
current potable water costs; with this assistance, the breakeven point 
is realized within one year. In these difficult economic times, the 
City of Antioch is not unique as many public agencies continue to be 
challenged with decreasing revenue and increasing expenditures. Without 
the Federal partnership, the City simply could not afford the cost to 
convert its water supply to recycled water. Thus, this modest federal 
investment plays a significant role in promoting recycled water 
development and will provide benefits for years to come.
    As Secretary of the Interior Ken Salazar indicated during his visit 
to the Delta last year, ``It is time to modernize, it is time to make 
hard choices and it is time for the Federal government to reengage in 
full partnership with the 21st century water system for the State of 
California.'' Water recycling and reuse technology must be a large 
component of this new system, and this should occur without further 
delay. Authorizing these projects provides the Federal partnership 
needed to move these projects forward.
    These water projects help to answer President Obama's call to 
ensure the safety of our environment and to rebuild our economic 
vitality for future generations with investments now. When we protect 
our resources, we protect our future.
    I ask the Subcommittee to join with our Coalition once again and 
support S. 1138, which will benefit millions of Californians and the 
Bay-Delta ecosystem. These projects are mutually beneficial for the 
Federal government and the local project sponsor. They offer the 
Federal government an opportunity to leverage Federal funds for 
significant benefit. These projects help achieve the objectives of the 
Central Valley Project Improvement Act, the Bay Delta Conservation 
Plan, and the December, 2009 Interim Federal Action Plan for the 
California Bay-Delta. Investing in the work being undertaken by our 
Coalition will result in advanced technologies which protect the health 
of our communities and environment, while providing long-term economic 
benefits.
    Your support for S. 1138 will build on an already progressive and 
proven partnership between the Federal government and local communities 
to expand the successful regional water recycling program across the 
San Francisco Bay Area. Accordingly, the Coalition urges support for S. 
1138. Thank you.
                                 ______
                                 
Statement of J. Tom Ray, PE, D.WRE, Water Resources Program Manager, on 
              behalf of the City of Waco, TX, on H.R. 1120
    On behalf of the City of Waco, I appreciate the opportunity to 
submit this written testimony in support of HR 1120, the Central Texas 
Water Recycling Act of 2009. This Committee's continued interesting and 
leadership with regard to the water reuse issue and in the Central 
Texas Water Recycling Act of 2009 is deeply appreciated. I want to 
express my sincere gratitude to Congressman Edwards for introducing 
this legislation. Congressman Edwards has been very supportive of water 
resources initiatives in Central Texas, and we certainly appreciate his 
continued work on this legislation.
    The City of Waco and the member cities of the regional wastewater 
system known as the Waco Metropolitan Regional Sewerage System or 
WMARSS, have moved forward on two critical components of this Act 
contributing substantial local funding and complying fully with the 
Bureau of Reclamation's Title XVI program requirements for an approved 
Feasibility Study.

          1. Title XVI Program Requirements Satisfied: The Feasibility 
        Report of the Flat Creek Reuse Project: Component of the 
        Central Texas Water Reuse and Resources Management Plan was 
        approved on October 13, 2009.
          2. Substantial Local Funding Committed and Components 
        Constructed: A major component of the Reuse Project, the eight-
        mile 20-inch reuse (purple pipe) pipeline has been designed, 
        found compliant with NEPA requirements, financed and 
        constructed. The local WMARSS cities have invested $2,915,300 
        in the construction of the reuse pipeline, which is now 
        complete. The local investment makes implementation of the 
        Reuse Project with federal support a strong reality. The total 
        project cost is estimated at $9,565,000--the WMARSS, local 
        sponsors, have invested to date just under $3,000,000. The 
        approved Feasibility Study project has a cost-share of 
        $4,987,743 local funding and $1,662,581 federal share. For the 
        total project, both the completed and approved Title XVI 
        proposed for construction, the WMARSS, local sponsor, will 
        contribute $7,900,000, reducing the federal investment to 17% 
        of the total project cost.

    Significant process has been completed; HR 1120 represents the 
federal partnership to move to final implementation and operation. The 
federal contribution to this project will not only provide for 
conservation of our community's water supply but will also reduce cost 
to the taxpayers and provide benefits to the environment as treated 
effluent is not dumped into river but is used to sustain habitat in our 
parks and recreational areas.
    Recycling of highly treated wastewater provides an additional 
valuable resource for a large number of identified reuse applications, 
including golf courses, landscape irrigation, industrial cooling water, 
and other industrial applications. The initial projects eligible for 
funding under this legislation could provide up to 10 million gallons 
per day of reuse water; thereby, reducing the water demand on Lake 
Waco. This is enough water supply to meet the needs of over 20,000 
households.
    Other keys to the Central Texas Recycling Program and specifically 
the Flat Creek Reuse Project for the Committee's consideration:

  <bullet> Provides for recycling of treated effluent from the Waco 
        Metropolitan Area Regional Sewerage System (WMARSS)
  <bullet> Local sponsor (WMARSS) has invested approximately $3.0 
        million for the design and construction of 45,000 feet of 20-
        inch reuse pipeline
  <bullet> Bureau of Reclamation approved the Flat Creek Water Reuse 
        Feasibility Study in October 2009
  <bullet> Reuse pipeline is under construction and nearing completion, 
        financed by the local cities
  <bullet> Waco/WMARSS Cities have invested approximately $3,000,000 
        and will invest another $5,000,000 of the future reuse 
        facilities (Title XVI federal share is $1,662,000 or 17% of the 
        total reuse project cost)
  <bullet> NEPA compliance has been addressed for the Flat Creek Reuse 
        pipeline and facilities
  <bullet> Strong support among potential reuse users located in the 
        Waco industrial district and elsewhere
  <bullet> Title XVI funding to support pumping and terminal facilities 
        needed for distribution
  <bullet> Plans developed to serve industrial, commercial and 
        municipal customers
  <bullet> Conserves the limited Central Texas water supply
  <bullet> Allows use of less expensive reuse supplies instead of 
        expensive treated supplies
  <bullet> Flat Creek system is Component #1 of the Central Texas Reuse 
        Program, a comprehensive plan to conserve the water resources 
        of Central Texas; the Components include:
----------------------------------------------------------------------------------------------------------------
              Component                          Description                             Schedule
----------------------------------------------------------------------------------------------------------------
#1                                                               Flat Creek IntInterceptor and Reuse Line under
                                            Pipeline and Appurtenances                                         Construction; Source, termination and
                                                                              delivery pending funding & design
----------------------------------------------------------------------------------------------------------------
#2                                                             WMARSS Central Plant Reuse to Under construction
                                                           Power Plant
----------------------------------------------------------------------------------------------------------------
#3                                     Bull Hide Regional Plant  Reuse                 Potential Future Project
                                                               Project
----------------------------------------------------------------------------------------------------------------

Project Description
    The Flat Creek project originates at the WMARSS Wastewater 
Treatment Plant (Central Plant) and will terminate about 6,000 feet 
west of IH-35. Approximately eight miles of 20'' Class 165 C-905 purple 
pipe. The system also includes a 1.5 million gallon ground storage tank 
and pump station at the WMARSS Central Plant and potentially 6,700 feet 
of 12'' reclaimed waterline to service the Cottonwood Creek Golf Course 
and other potential users.
Project Cost
          $2,915,315. . . . .20-inch Reuse Pipe (6,000 feet installed) 
        Completed and financed by local Waco/WMARSS Cities
          $6,650,324. . . . .Future facilities at Central WWTP and 
        Termination

                  Local share $4,987,743
                  Federal share $1,662,581
                               background
    Waco is the urban center of a rapidly growing McLennan County. Waco 
and the surrounding cities of Bellmead, Hewitt, Lacy-Lakeview, Lorena, 
Robinson, and Woodway have a long-history of cooperative and regional 
efforts on water resources, including the joint ownership and operation 
of the WMARSS. Waco and McLennan County are fortunate to have a vibrant 
economic with growing population and excellent quality of life for 
residents. However, with growing population there is an increasing 
demand for water. Many of the surrounding communities rely on nearby 
Lake Waco in the Bosque River basin as the primary water supply source. 
Several cities also have groundwater sources from the Trinity Aquifer. 
Electric power generation is another critical factor of the economy of 
Central Texas and is an important component of the Central Texas Reuse 
program.
    The Waco and McLennan area is within the IH-35 corridor. Population 
growth within this corridor continues to significantly outpace state-
wide growth rates. The regional water plan for central Texas states 
that population growth in counties within the IH-35 corridor ``has been 
rapid since 1970, averaging 3.9% annual.'' For this area, the future 
water demand is about 51% of the central Texas region's total demand in 
the year 2000, and it is expected to keep growing at a rapid rate. 
Within McLennan County, all cities are expected to experience sustained 
growth over the period from 2010 to 2060. Waco is expected to grow by 
about 26% during this period from a 2010 population of 121,355 to a 
2060 population of 152,715. Cities surrounding Waco will grow even more 
rapidly: the City of Hewitt is expected to growth from a 2010 
population of 11,085 to a 2060 population of 19,170 or a 51.3 percent 
increase.
    In addition to growth and industrial development, Central Texas 
must respond to drought conditions and the seasonal demands that 
drought imposes on our water supplies. With the recent heavy rains, the 
memory of severe drought conditions be grow faint; but, in fact, we 
know from experience that drought conditions will reoccur in Central 
Texas and that recent droughts have actually been more severe than in 
the past.
    The water supply storage available from Lake Waco to Central Texans 
is fixed; the groundwater supplies must be limited to wise use that 
protects our underground aquifers. With growth and drought in Texas 
driving the need for more water supply in the future, how we use our 
limited, existing supplies is decisive. Every existing water resource 
that has the potential to augment our water supplies must be conserved 
and used efficiently. This is recognized on a statewide basis by the 
Texas Water Conservation Association that has emphasized the value of 
water reuse throughout the State. Recently adopted Statewide water 
plans, under the direction of the Texas Water Development Board, have 
identified water reuse as a critical component of future strategies to 
meet water shortages in each of thel6 planning areas of the State. In 
Central Texas, and particularly among the cities located in McLennan 
County, reuse is a major component of our current plans. Reuse of 
treated wastewater effluent is included in the current expansion of the 
area's regional wastewater treatment system.
    Cities in Central Texas have invested significant local funds in a 
number of supply enhancement and water treatment projects in recent 
years. These costly efforts include water quality protection programs 
for our major surface water and groundwater resources, enlargement of 
the conservation pool of Lake Waco, and investments in advanced water 
treatment processes to meet and exceed federal and state standards as 
well as to remove taste and odor. All of these investments are 
substantial for the citizens of McLennan County and Central Texas. As a 
result, the cities are actively pursuing the means to maximize those 
investments and to conserve our valuable water resources. Water 
recycling and reuse of reclaimed wastewater effluent is therefore a key 
component of this effort. H.R. 1120 will help us to succeed in this 
effort to replace the use of costly, treated water supplies for uses 
such as irrigation, cooling water and other industrial uses.
    Reuse supplies will help us cope with seasonable demands and peak 
water use. With temperatures in Central Texas that typically reach over 
100 degrees during the summer, we must respond to the seasonal effects 
on water use and water demands. To help address the spikes in demand 
due to seasonal water use, the community of cities in McLennan County 
is incorporating reuse into the current plans to expand the regional 
wastewater treatment system. As opposed to expanding the central 
wastewater treatment located in a remote, downstream area, the 
expansion will be accomplished with ``satellite'' wastewater treatment 
plants that will be located in areas near the high growth corridors. 
This growing areas that include industrial, commercial, and residential 
as well as park lands and golf courses owned by the cities, will have 
the opportunity to reduce dependence on the use of costly treated water 
by having high quality, wastewater effluent available for irrigation 
and industrial uses. The reuse of treated wastewater effluent is the 
priority component of the ``Central Texas Reuse Program.''
    The Central Texas Reuse Program is multi-dimensional consisting of 
a number of efforts-reclamation and reuse, conservation, water quality 
protection, environmental restoration-organized into a series of 
projects or components to provide optimal use and proper management of 
the limited water resources available to the Central Texas community. 
The need for proper water resources management to optimize the use of 
the limited surface and ground water supplies in Central Texas has been 
recognized by the City of Waco and the cities comprising the Waco 
Metropolitan Area Regional Sewerage System. Working together these 
cities support the Central Texas Reuse program, which is a 
comprehensive program to optimize on a regional basis the area's water 
resources through conservation, reuse and recycling projects. The 
efforts will include municipal, industrial and electric power 
generation customers. The Central Texas Water Recycling Act will help 
support the efforts to provide sustainable water supplies in this area 
of Texas.
    With this background, let me summarize the specific need for and 
benefits of the reclamation and water recycling project. Today, the 
growth areas of the regional wastewater collection facilities are 
hydraulically overloaded. In addition, the Central Wastewater Treatment 
Plant, which currently treats all wastewater generated by the serves 
all of the six cities that comprise the regional wastewater system is 
nearing its permitted discharge capacity. The Texas Commission on 
Environmental Quality is requiring plans for the expansion of the 
existing wastewater treatment capacity.
    A comprehensive engineering solution to this wastewater challenge 
is the construction of a satellite wastewater reclamation plants and 
facilities to in part provide benefits from the reuse of the reclaimed 
effluent. The benefits of satellite plants are significant, in addition 
to avoiding expensive relocation of infrastructure and downstream 
conveyance improvements (estimated at $2.1 million), the plants will 
provide capacity for future growth in the ``high growth'' corridor, and 
significantly, the reclaimed water produced at the proposed reclamation 
plant can be readily delivered to dozens of end users within the nearby 
vicinity. Not only would this reclaimed water be a revenue generator, 
it would also help reduce the summertime peak water demands at the 
regional water treatment plant.
    In summary, this legislation will not only provide for conservation 
of our community's water supply but will also reduce cost to the 
taxpayers and provide benefits to the environment as treated effluent 
is not dumped into river but is used to sustain habitat in our parks 
and recreational areas. Recycling of highly treated wastewater provides 
an additional valuable resource for a large number of identified reuse 
applications, including golf courses, landscape irrigation, industrial 
cooling water, and other industrial applications. The initial projects 
eligible for funding under this legislation can provide up to 10 
million gallons per day of reuse water; thereby, reducing the water 
demand on Lake Waco. This is enough water supply to meet the needs of 
over 20,000 households.
                                 ______
                                 
   Statement of Edwin Hansen, Magna Water District (Utah), on S. 745
    My name is Ed Hansen, and I am the General Manager of the Magna 
Water District, which encompasses a population of approximately 28,000 
people, and serves a district wide area of Magna Township, north 
western areas of West Valley City, and a portion of southwestern Salt 
Lake City, Salt Lake County, Utah.
    I want to thank Senator Hatch for sponsoring this bill along with 
Representatives Jason Chaffetz, Jim Matheson and Rob Bishop in the 
House.
    Through this Title XVI project now before the committee, the Magna 
Water District has a unique opportunity to restore a drinking water 
supply by removing perchlorate and arsenic from our groundwater sources 
while implementing a water reuse and groundwater recharge project. Over 
the past century, the historic uses of the nearby land, copper mining 
and rocket fuel production, have necessitated an aggressive response by 
our district.
    A new electrodialysis reversal (EDR) facility is currently 
operating under the final start up and testing phases for removal of 
perchlorate and arsenic from our ground water sources. As a result, two 
products: high quality drinking water and a concentrated waste stream, 
are being produced.
    The drinking water will be pumped directly into the District's 
potable water system while the waste stream will flow by gravity to the 
existing wastewater treatment plant (WWTP) where the District's 
patented ``green'' bio-destruction technology is being employed using a 
series of bioreactors to destroy perchlorate and remove arsenic from 
the waste stream leaving no residual contaminants.
    The bioreactors will produce high quality effluent that can be 
disinfected along with the effluent from the existing WWTP. This 
effluent will used for irrigation through a reuse and secondary water 
irrigation system, thus eliminating the need to use high quality 
drinking water for outdoor irrigation uses.
    The existing WWTP effluent is currently discharged into the Great 
Salt Lake where it is unrecoverable by the District. There is synergy 
in the proposed system where as the areas being irrigated are also 
within the recharge zone for groundwater recovery wells that provide 
water for the District's expanding secondary water irrigation system.
    As a whole, this reclamation project will result in substantially 
greater energy and other cost efficiencies. i.e. a projected immediate 
annual reduction of 580 million gallons (1,780 acre-feet (AF)) of high 
quality, potable project water used for outdoor irrigation with a 
projected future demand reduction of 5,792 AF of water per year.
    Magna Water District is seeking funds, on a matching basis, to 
implement this project that will generate several benefits to its water 
users:

          1) It will reduce the current use of treated high quality 
        project water thus cutting operating costs,
          2) It will preserve an 8 cubic feet second (cfs) or a 5,792 
        AF water right located at the WWTP outfall, and
          3) It will preserve and sustain our valuable water resources, 
        and to promote water conservation.

    Utah ranks as the second driest state in the nation following 
Nevada, but is number one in per capita water use (municipal and 
industrial) at about 300 gallons of water per person per day. The 
residents of Magna are willing to invest a portion of the project that 
they know will benefit the District as well as other surrounding 
communities.
    In fact, as a part of this reclamation project, the District and 
its water users are investing more than $20 million in treatment 
facilities to remove perchlorate and arsenic and from the water supply.
    The high cost of water treatment has forced the District to 
evaluate water usage and to investigate possibilities for reducing non-
potable water use. In 2004, recognizing the demand for high quality 
drinking water for outdoor irrigation in their existing system, the 
District planned, designed and installed the first phase of a secondary 
water system.
    Phase I of this system targets all of the District's large water 
users such as schools, churches, golf courses, and parks.
    As a result of the secondary water system planning and 
implementation efforts, District reports show a dramatic drop in 
potable usage for those using the secondary system. Private residences 
that connected to the secondary water system showed similar results; in 
most cases, nearly a 98% reduction in potable water usage for outdoor 
watering was achieved.
    The District continues to master plan to address the growing needs 
of its population by maximizing the use of its potable water supply for 
domestic, in-home uses and using expansion of the secondary water 
system for outdoor purposes thereby preserving its valuable potable 
water resources.
    A key element of this Phase II is to utilize the high quality 
product (reuse) water from the bioreactors at the District's wastewater 
treatment facility to increase the supply of water available for 
outdoor use. Reuse of water from the District's bioreactors will 
control potable water capital and operating costs and enhance water 
conservation efforts.
    In addition, all new development within the District boundary is 
currently required to install secondary water piping and infrastructure 
that complies with District standards to further maximizes the 
District's ability to preserve potable water resources. This policy 
allows funding for this system to primarily benefit existing users and 
requires new development to bear the cost of secondary and reuse 
systems that are to its benefit.
    The total cost of the project is estimated to be approximately $51 
million. Project funding sources include approximately $3 million in 
Federal funding and $36 million funded by the District. Passage of this 
legislation will allow the District to fund the remaining $12 million 
through the Bureau of Reclamation's Water Reclamation and Reuse (Title 
XVI). When this happens, the citizens of Magna and our larger service 
area will be able to rely on a sustainable water supply that continues 
to be clean, safe and dependable. Thank you for this opportunity to 
testify. I would be happy to answer any questions.


</pre></body></html>
